No. 19-1277
In the

Supreme Court of the United States
__________________
DAVID THORPE,
v.

Petitioner,

DEXTER DUMAS, and individual, GEORGE JENKINS, an
individual, LAUREN BOONE, an individual, JEFFREY S.
CONNELLY, an individual, FANI WILLIS, an individual,
and URAL GLANVILLE, an individual,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

__________________

BRIEF IN OPPOSITION
__________________
REGINALD C. MARTIN
Senior Assistant City Attorney
Counsel of Record
STACI J. MILLER
Assistant City Attorney
City of Atlanta Law Department
55 Trinity Avenue, Suite 5000
Atlanta, Georgia 30303
(404) 546-4100
remartin@atlantaga.gov
sjmiller@atlantaga.gov
June 11, 2020

Counsel for Respondent
Dexter Dumas

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED1
1. WHETHER, PURSUANT TO FEDERAL RULES
OF CIVIL PROCEDURE 4 AND 12(B)(5),
RESPONDENT DUMAS IS ENTITLED TO
DISMISSAL OF PETITIONER’S CLAIMS
AGAINST HIM DUE TO INSUFFICIENT
SERVICE OF PROCESS?
2. WHETHER THE ELEVENTH CIRCUIT ERRED
IN AFFIRMING THE DISTRICT COURT’S
DENIAL OF PETITIONER’S MOTION FOR
RELIEF FROM JUDGMENT PURSUANT TO
FEDERAL RULE OF CIVIL PROCEDURE 60(B)?

1

Respondent Dumas also sought dismissal of the claims against
him under Fed. R. Civ. P. 12(b)(6), for failure to state a claim, and
statute of limitations grounds. However, the only issue on appeal
in this matter is whether the Eleventh Circuit properly affirmed
the District Court’s grant of Respondent Dumas’ Motion to Dismiss
on the issue of insufficient service of process. Appendix to
Appellant David Thorpe’s Brief (“Pet. App.”) at 6a.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
I.

PROCEDURAL POSTURE. . . . . . . . . . . . . . . 1

II.

RELEVANT FACTS . . . . . . . . . . . . . . . . . . . . 3

REASONS FOR DENYING PETITIONER’S
WRIT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

THE PETITION SHOULD BE DENIED
BECAUSE NO CIRCUIT-SPLIT EXISTS . . . 4
A. The Eleventh Circuit, consistent with the
Second, Sixth, and Seventh Circuits, held
that the defense of insufficient service of
process is not waived when alleged at the
earliest opportunity . . . . . . . . . . . . . . . . . . 4
B. The District Court was precluded from
addressing the merits of the case by
Petitioner’s failure to properly serve
Respondent Dumas . . . . . . . . . . . . . . . . . . 5

II.

THE FEDERAL RULES OF CIVIL
PROCEDURE 4 AND 5 ARE NOT
INTERCHANGEABLE AND PETITIONER
MUST FOLLOW BOTH . . . . . . . . . . . . . . . . . 6
A. Rule 5 does not satisfy the initial service
notice required in the commencement of
an action in Federal Court. . . . . . . . . . . . . 8

iii
B. It was not an abuse of discretion by the
lower court to dismiss the action based
upon Petitioner’s failure to properly serve
the parties under Rule 4 . . . . . . . . . . . . . . 9
C. The District Court did not abuse
its discretion when finding that
Petitioner failed to give proper notice
under Rule 4 . . . . . . . . . . . . . . . . . . . . . . . 10
D. The Eleventh Circuit did not abuse its
discretion when it affirmed the District
Court’s findings that Petitioner failed
to personally serve Respondent under
Rule 4 and thus proper notice was not
given . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
III.

THE
DISTRICT
COURT
AND
ELEVENTH CIRCUIT DUTIFULLY
CONSIDERED PETITIONER’S AMENDED
COMPLAINT . . . . . . . . . . . . . . . . . . . . . . . . . 14

IV.

THE DISTRICT COURT AND ELEVENTH
CIRCUIT CONSIDERED ALL RELEVANT
CASE AND STATUTORY LAW . . . . . . . . . . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
APPENDIX
Appendix A First Amended Complaint in the
United States District Court Northern
District of Georgia
(September 19, 2018) . . . . . . . . . . App. 1

iv
Appendix B Defendant Dexter Dumas’ Motion to
Dismiss Plaintiff’s First Amended
Complaint and Incorporated Brief by
Special Appearance in the United
States District Court Northern
District of Georgia
(October 1, 2018) . . . . . . . . . . . . . App. 41
Appendix C Order in the United States District
Court Northern District of Georgia
(November 8, 2018). . . . . . . . . . . App. 48
Appendix D Motion for Relief from Judgment
Pursuant to Fed. R. Civ. P. 60 (b) and
Plaintiff Requests That the Case Be
Re-Opened, and Entry of Default
Judgment Be Addressed in the United
States District Court Northern
District of Georgia
(November 29, 2018) . . . . . . . . . . App. 67
Appendix E Order Denying Petition for Panel
Rehearing in the United States Court
of Appeals for the Eleventh Circuit
(October 28, 2019) . . . . . . . . . . . . App. 75
Appendix F Notice of Appeal in the United States
District Court Northern District of
Georgia
(January 8, 2019) . . . . . . . . . . . . App. 77

v
TABLE OF AUTHORITIES
CASES
Camp v. Coweta County,
625 S.E.2d 759 (2006) . . . . . . . . . . . . . . . . . . . . . 13
Continental Bank, N.A. v. Meyer,
10 F.3d 1293 (7th Cir. 1993). . . . . . . . . . . . . . . . . 4
Cullman Med. Center,
896 F.2d 1313 (11th Cir. 1990). . . . . . . . . . . . . . . 6
Firestone Tire & Rubber Co. v. Risjord,
449 U.S. 368 (1981). . . . . . . . . . . . . . . . . . . . . . . . 6
Gerber v. Riordan,
649 F.3d 514 (6th Cir. 2011). . . . . . . . . . . . . . . 4, 5
Green v. Humphrey Elevator & Truck Co.,
816 F.2d 877 (3d Cir. 1987) . . . . . . . . . . . . . . . . 13
Hamilton v. Atlas Turner, Inc.,
197 F.3d 58 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . 4
Jackson v. Warden, FCC Coleman-USP,
259 F.App’x 181 (11th Cir. 2007) . . . . . . . . . . 6, 11
McNeil v. U.S.,
508 U.S. 106 (1993). . . . . . . . . . . . . . . . . . . . . . . 15
Natty v. Morgan,
615 F.App’x 938,939 (11th Cir. 2015) . . . . . 11, 15
Omni Capital Intern., Ltd. v. Rudolf Wolff &
Co., Ltd., 484 U.S. 97 (1987). . . . . . . . . . . . . . . . 12
Pardazi v. Med. Ctr.,
896 F.2d 1313 (11th Cir. 1990). . . . . . . . . . . . . . 11

vi
Peters v. United States,
9 F.3d 344 (5th Cir. 1993). . . . . . . . . . . . . . . . . . 13
Prewitt Enters., Inc. v Org. of Petroleum Exporting
Countries, 353 F.3d 916 (11th Cir. 2003). . . . . . 12
Yates v. Baldwin,
633 F. 3d (8th Cir. 2011). . . . . . . . . . . . . . . . . . . 13
STATUTES
O.C.G.A. § 9-11-4 . . . . . . . . . . . . . . . . . . . . . . 2, 11, 13
RULES
FED. R. CIV. P. 4 . . . . . . . . . . . . . . . . . . . . . . . . passim
FED. R. CIV. P. 5 . . . . . . . . . . . . . . . . . . . . 6, 7, 8, 9, 17
FED. R. CIV. P. 7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
FED. R. CIV. P. 12 . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
FED. R. CIV. P. 12(b)(5) . . . . . . . . . . . . . . . . . . 1, 12, 17
FED. R. CIV. P. 12(b)(6). . . . . . . . . . . . . . . . . . . . . . 2, 3
FED. R. CIV. P. 60(b) . . . . . . . . . . . . . . . . . . . . . . . . . . 2

1
RESPONDENT’S BRIEF IN OPPOSITION
Respondent Dexter Dumas (“Respondent Dumas”)
respectfully opposes Petitioner’s Petition for Writ of
Certiorari (“Petition”) which seeks to reverse the
September 17, 2019 Order (“Order”) of the United
States Court of Appeals for the Eleventh Circuit
(“Eleventh Circuit”) in this case. Petitioner’s Appendix,
hereinafter “Pet. App.”, at 1a – 11a. As the Eleventh
Circuit correctly held, Petitioner’s failure to serve
Respondent Dumas pursuant to Federal Rule of Civil
Procedure 4 necessitated the dismissal of Petitioner’s
Amended Complaint and precluded the District Court
from addressing the merits of Petitioner’s Amended
Complaint.
STATEMENT OF THE CASE
I.

PROCEDURAL POSTURE

Petitioner filed his Complaint for Damages and
Jury Trial Demand, hereinafter “Complaint”, on
August 10, 2018. He placed a copy of the Complaint
and Summons in the mail addressed to 2315 Donald L.
Hollowell Parkway NW, Atlanta, Georgia 30318 (also
known as “Atlanta Police Department Zone One
Precinct”) on or about August 20, 2018. After
Respondent Dumas filed his first Motion to Dismiss,
Petitioner filed his Amended Complaint on September
19, 2018. Respondent Dumas timely filed his Motion to
Dismiss Plaintiff’s First Amended Complaint and
Incorporated Brief by Special Appearance (“Dumas
Motion to Dismiss”) on October 19, 2018, requesting
that the District Court grant his Motion to Dismiss
pursuant to Federal Rules of Civil Procedure 12(b)(5)

2
and (6), for insufficient service of process and failure to
state a claim for which relief can be granted.
Respondent’s Appendix 42, hereinafter “Resp. App.”. To
date, Petitioner has failed to personally serve
Respondent Dumas with a copy of the Complaint and
Summons.
On November 8, 2018, the District Court, Judge
Amy Totenberg presiding, properly granted Respondent
Dumas’ Motion to Dismiss2 without prejudice, finding
that Petitioner’s “attempted service by mail is
insufficient under both Federal Rule of Civil Procedure
4 and O.C.G.A. § 9-11-4 (e)(7).” Resp. App. Doc. 30 at 89. On November 29, 2018, Petitioner filed his Motion
for Relief from Judgment Pursuant to Federal Rule
Civil Procedure 60(b), hereinafter “Motion for
Reconsideration”, which was later denied. Resp. App.
67.
Petitioner timely filed his Notice of Appeal to the
Eleventh Circuit on January 8, 2019, twenty-eight (28)
days after his Motion for Reconsideration was denied
on December 11, 2018. Resp. App. 77. In his Notice of
Appeal, Petitioner sought to appeal the District Court’s
rulings on both Respondent Dumas’ Motions to Dismiss
and the Motion for Reconsideration. Id.
On September 17, 2019, the Eleventh Circuit
entered its Order in the present matter. Pet. App. at
1a – 11a. The Order affirmed the District Court’s
dismissal of Petitioner’s Amended Complaint finding
2

The District Court did not address the merits of Respondent
Dumas’ Motion to Dismiss under Fed. R. Civ. P. 12(b)(6). Resp.
App. 54-55.

3
that Petitioner failed to properly serve Respondent
Dumas. Id. Petitioner now seeks to reverse the
Eleventh Circuit’s Order through his Petition for
Certiorari.
II.

RELEVANT FACTS3

Petitioner alleged in his Amended Complaint that
Respondent Dumas initiated an arrest warrant against
Petitioner in either July or August of 2014. Resp. App.
7. Petitioner further alleged that during this time,
Respondent Dumas “knowingly provided the Fulton
County Magistrate Court and the [Fulton County
District Attorney’s Office] with a falsified affidavit to
obtain an arrest warrant” against Petitioner. Id. at 10.
Petitioner filed suit in this matter on August 10, 2018.
Resp. App. 43.
Petitioner filed his Complaint for Damages and
Jury Trial Demand, on August 10, 2018. Resp. App. 43.
Plaintiff placed a copy of the Complaint and Summons
in the mail addressed to 2315 Donald L. Hollowell
Parkway NW, Atlanta, Georgia 30318 on or about
August 20, 2018. After Respondent Dumas filed his
first Motion to Dismiss, Petitioner filed his Amended
Complaint on September 19, 2018. Resp. App. 1.
Petitioner placed a copy of the Amended Complaint and
Summons in the mail addressed to Counsel for
Respondent Dumas and the Assistant Attorney
General. Id. at 37. To date, Petitioner has failed to
3

As this appeal arises out of a motion to dismiss under Fed. R. Civ.
P. 12(b)(6), the facts as alleged in the Amended Complaint are
accepted as true. However, Respondent Dumas does not agree with
all the facts as alleged by Petitioner.

4
personally serve Respondent Dumas with a copy of the
Amended Complaint and Summons.
REASONS FOR DENYING PETITIONER’S WRIT
I.

THE PETITION SHOULD BE DENIED
BECAUSE NO CIRCUIT-SPLIT EXISTS.
A. The Eleventh Circuit, consistent with
the Second, Sixth, and Seventh Circuits,
held that the defense of insufficient
service of process is not waived when
alleged at the earliest opportunity.

Petitioner contends that the Eleventh Circuit
created a circuit-split by deciding the issue of whether
Respondent Dumas waived the defense of insufficient
service of process in contradiction to the holdings of the
Second, Sixth, and Seventh Circuits. Brief of Petitioner,
hereinafter “Pet.” at iii. However, this contention is
palpably false. In reaching its decision below, the
Eleventh Circuit conducted a similar analysis to those
used in the Second, Sixth, and Seventh Circuits by
looking to whether the defendants raised the issue of
insufficient service of process at the earliest
opportunity. Pet. App. at 7a. This analysis is consistent
with the analyses used in the Second, Sixth, and
Seventh Circuits. Hamilton v. Atlas Turner, Inc., 197
F.3d 58 (2d Cir. 1999); Gerber v. Riordan, 649 F.3d 514
(6th Cir. 2011); Continental Bank, N.A. v. Meyer, 10
F.3d 1293 (7th Cir. 1993). Thus, Petitioner seeks a Writ
of Certiorari based upon a manufactured circuit-split
and a misreading of the Eleventh Circuit’s holding.
In its Order, the Eleventh Circuit held that
“contrary to Thorpe’s contentions, neither Dumas, nor

5
Jenkins, nor Boone, nor Connelly waived service of
process.” Pet. App. at 7a. This is because “[i]n their
original motions to dismiss and their motions to
dismiss the first amended complaint – the defendants’
first response to each of Thorpe’s complaints – all four
of them argued that process was insufficient.” Id.
Thus, the Eleventh Circuit held that Respondent
Dumas did not waive the defense of insufficient service
of process. Id. In filing his Motion to Dismiss,
Respondent Dumas did not “manifest an intent to
submit to the court’s jurisdiction”. Gerber, 649 F.3d at
523. In fact, he did the exact opposite. Respondent
Dumas raised the defense of insufficient service of
process in his pre-answer motion. Pet. App. at 7a.
Thus, the Eleventh Circuit’s holding is consistent with
jurisprudence in the Second, Sixth, and Seventh
Circuits concerning waiver of defenses and should be
affirmed. None of the cases presented by Petitioner
support or require a different result.
B. The District Court was precluded from
addressing the merits of the case by
Petitioner’s failure to properly serve
Respondent Dumas.
Petitioner argues in Questions (B)(2) – (3) that both
the District Court and the Eleventh Circuit erred in
“purposely not taking into consideration that the
Respondent’s [sic.] motions… substantially litigated
every defense” and “not considering Petitioner’s
amended complaints.” Petitioner’s Brief at iv. However,
this Court has long held that “[a] court lacks discretion
to consider the merits of a case over which it is without

6
jurisdiction.” Firestone Tire & Rubber Co. v. Risjord,
449 U.S. 368, 379 (1981).
“Service of Process is a jurisdictional requirement:
a court lacks jurisdiction over the person of a defendant
when that defendant has not been served.” Cullman
Med. Center, 896 F.2d 1313, 1317 (11th Cir. 1990).
Therefore, it would have been “improper for the district
court to have reached the merits in this case” because
it lacked jurisdiction over Respondent Dumas. Jackson
v. Warden, FCC Coleman-USP, 259 Fed.Appx. 181, 183
(11th Cir. 2007). Despite Petitioner’s assertions to the
contrary, the District Court and the Eleventh Circuit
were without jurisdiction to address the merits of his
case because Petitioner did not perfect service upon
Respondent Dumas. Cullman, 896 F.2d at 1317. As a
result, Petitioner’s arguments concerning the lower
courts “purposely not taking into consideration … [his]
motions” are without merit and contrary to legal
precedent in both this Court and the lower circuits.
Thus, Petitioner’s arguments, should not be
reconsidered.
II.

THE FEDERAL RULES OF CIVIL
PROCEDURE 4 AND 5 ARE NOT
INTERCHANGEABLE AND PETITIONER
MUST FOLLOW BOTH.

The purpose of the Federal Rules of Civil Procedure
4 (hereinafter Rule 4) concerns the commencement of
civil actions in the Federal court system. FED. R. CIV.
P. 4. The first step in any action is the filing of the
complaint. FED. R. CIV. P. 4. Under Rule 4, Plaintiff
must provide notice of the filing of the complaint by
personally serving the defendant. Id. Specifically, Rule

7
4 requires a plaintiff to serve each defendant with a
copy of both the summons and the complaint unless the
defendant waives service. Id. Service of process can be
accomplished by:
(a) Delivering a copy of the summons and of the
complaint to the individual personally;
(b) Leaving a copy of each at the individual’s
dwelling or usual place of abode with someone of
suitable age and discretion who resides there; or
(c) Delivering a copy of each to an agent
authorized by appointment or by law to receive
service of process. FED. R. CIV. P. 4.
Federal Rule of Civil Procedure 5 (hereinafter Rule
5) governs the filing of subsequent pleadings after the
initial complaint has been filed. FED. R. CIV. P. 5.
Specifically, under Rule 5 service is required:
(1)

In General: unless these rules provide
otherwise, each of the following papers
must be served on every party;
(B) a pleading filed after the original
complaint, unless the court orders
otherwise…
(b) Service: How Made.
(1) Serving an Attorney: If a
party is represented by an
attorney, service under this
rule muse be made on the
attorney unless the court orders
service on the party. FED. R.
CIV. P. 5.

8
Petitioner asserts that there is a conflict between
Rules 4 and 5 in application. Brief of Petitioner at iv.
On its face and in application there are no conflicts
between Rule 4 and 5 and a plaintiff must satisfy Rule
4 before reaching Rule 5.
A. Rule 5 does not satisfy the initial service
notice required in the commencement of
an action in Federal Court.
It is clear to commence a civil action in Federal
Court, notice must first be served upon the parties.
Rule 4 sets out the proper process for service upon a
party. FED. R. CIV. P. 4. Rule 4 requires a Plaintiff in
a civil action to personally serve the Defendant with a
copy of the Summons and Complaint. Id. Here,
Petitioner never personally served Respondent with a
copy of the Summons and Complaint. Pet. App. at 21b.
Petitioner has neither complied nor attempted to
comply with Rule 4. Id. Petitioner’s filing of his First
Amended Complaint under Rule 5 would have been
proper had Petitioner complied with service of the
initial complaint under Rule 4.
Petitioner’s reliance on Rule 5 is a misapplication of
the rule. Rule 5 governs the filing of subsequent
pleadings and other papers in a civil action. FED. R.
CIV. P. 5. Rule 5 does not and is not meant to
circumvent the requirement of personal service under
Rule 4. Any assertion to the contrary is not supported
by law.

9
B. It was not an abuse of discretion by the
lower court to dismiss the action based
upon Petitioner’s failure to properly
serve the parties under Rule 4.
Petitioner argues that the lower courts were biased
when they did not accept his argument that his
subsequent filing of the First Amended Complaint
under Rule 5 should excuse his failure for not
personally serving Respondent in the initial complaint.
Petitioner’s brief at v. Petitioner’s reasoning stems
from Respondent’s counsel making a general
appearance in the initial complaint to contest the
insufficiency of service. Petitioner’s brief at 10a. The
record is clear that there was no waiver of service by
Respondent’s counsel. Pet. App. at 7a. Respondent
counsel filed a general appearance to contest the
insufficient service of process. Pet. App. at 6a. When
Petitioner filed his subsequent pleading, the First
Amended Complaint, personal service on the
Respondent still had not been perfected. Resp. App. 4445. Respondent’s counsel then filed their Motions to
Dismiss the Petitioner’s First Amended Complaint,
again they did not waive service and reasserted
insufficiency of service. Id. Neither the District Court
nor the 11th Circuit could overlook the insufficiency of
service under Rule 4. Therefore, Petitioner’s assertion
that the lower courts did not acknowledge his
adherence to Rule 5 is misplaced. Simply put, the
lower courts could not get to Rule 5 because Petitioner
failed to properly follow Rule 4.

10
C. The District Court did not abuse its
discretion when finding that Petitioner
failed to give proper notice under Rule
4.
The District Court properly followed the law as to
the application of Rule 4 in the commencement of civil
actions. Under Rule 4 an individual must be served
either:
(1) “following state law…in the state where the
district court is located or where service is
made” or doing one of the following:
(A) “delivering a copy of the summons and of the
complaint to the individual personally;
(B) leaving a copy of each at the individual’s
dwelling or usual place of abode with someone of
suitable age and discretion who resides there; or
(C) delivering a copy of each to an agent
authorized by appointment or by law to receive
service of process FED. R. CIV. P. 4
The District Court discussed Petitioner’s failure to
properly serve Respondent in this civil action.
Respondent properly asserted that there was
insufficient service of process because the Respondent
were served by mail. Resp. App. 54-55. The District
Court in review of previous Eleventh Circuit decisions
concerning service of process noted that:
Service of Process is a jurisdictional
requirement: a court lacks jurisdiction over the
person of a defendant when the defendant has
not been served. Thus, the Court begins its
inquiry here, as the Court cannot reach the

11
merits of the plaintiff’s claims against
improperly served defendant unless and until
those defendants are properly served or service
of process is waived.
Resp. App. 54. See also, FED. R. CIV. P. 4.; Pardazi v.
Med. Ctr. 896 F.2d 1313, 1317 (11th Cir. 1990) and
Jackson v. Warden, FCC Coleman-USP, 259 F.App’x
181, 183 (11th Cir. 2007). In reviewing Rule 4, the
District Court further noted that the 11th Circuit held
in Natty v. Morgan, 615 F.App’x 938,939 (11th Cir.
2015) that Rule 4 requires personal service on an
individual absent waiver. Id. at 8. In Natty, the
Eleventh Circuit upheld a dismissal of a pro se action
on grounds of imperfect service where the plaintiff’s
only attempt at service was sending by mail a copy of
the papers to the defendants. Natty, 615 F.App’x at
939. The District Court further reviewed whether Rule
4 service requirement was “following state law for
serving a summons in an action brought courts of
general jurisdiction in the state where the district court
is located.” Resp. App. 55. See, FED. R. CIV. P. 4. Under
Georgia law, a plaintiff may serve an individual
defendant “by leaving copies thereof at the defendant’s
dwelling house or usual place of abode with some
person of suitable age and discretion then residing
therein, or by delivering a copy of the summons and
complaint to an agent authorized by appointment or by
law to receive service of process.” O.C.G.A § 9-11-4
(e)(7). Thus, the District Court found that both Rule
4 and Georgia law required service of process to be
“personal service” – service by hand delivery of the
complaint and summons. FED. R. CIV. P. 4; O.C.G.A § 911-4; Resp. App. 56-57. Therefore, the District Court’s

12
dismissal of Petitioner’s case due to his failure to
properly served Respondent under both Rule 4 and
Georgia law was not an abuse of discretion and
Petitioner application for writ of certiorari must be
denied.
D. The Eleventh Circuit did not abuse its
discretion when it affirmed the District
Court’s findings that Petitioner failed to
personally serve Respondent under
Rule 4 and thus proper notice was not
given.
The Eleventh Circuit properly followed the law
when it affirmed the District Court’s findings that
Petitioner failed to personally serve Respondent
pursuant to Rule 4. Pet. App. at 7a. The Eleventh
Circuit’s review of a district court’s judgment granting
a Rule 12(b)(5) motion to dismiss for insufficient
service of process is de novo. Pet. App. at 5a; See
Prewitt Enters., Inc. v Org. of Petroleum Exporting
Countries, 353 F.3d 916, 920 (11th Cir. 2003). The
Eleventh Circuit reviews any findings of fact only for
clear error. Id.
In reviewing the District Court’s ruling in this
matter, the Eleventh Circuit first noted that, “a
plaintiff must properly serve process for the court to
have personal jurisdiction over the defendant.” Pet.
App. at 5a; See Omni Capital Intern., Ltd. v. Rudolf
Wolff & Co., Ltd., 484 U.S. 97, 104 (1987). The
Eleventh Circuit next reviewed both Rule 4 and
Georgia law, noting, that Georgia law allows for service

13
of process under the same circumstances as Rule 4.
Pet. App. at 5a; FED. R. CIV. P. 4; Ga Code Ann.
§ 9-11-4.
The Eleventh Circuit did review Petitioner’s
contentions that he properly served Respondent and
that Respondent waived proper service of process by
not addressing personal jurisdiction in their first
answer to his amended complaint. Pet. App. at 6a.
Petitioner admits that he attempted to serve
Respondent through certified mail only. Pet. App. at
6a. While the Eleventh Circuit noted that there was
some disagreement as to whether Petitioner sent the
original Complaint via certified mail to the Respondent
himself or whether he sent it to Respondent’s attorney
of record, the Eleventh Circuit rightly held that the
distinction made no difference because neither Rule 4
nor Georgia law authorize service of process through
the mail. Pet. App. at 6a. The Eleventh Circuit cited
further relevant case law from other circuits holding
service by certified mail is not proper service under
Rule 4. Pet. App. at 6a. In support, the Eleventh Circuit
cited to Yates v. Baldwin, 633 F. 3d 669, 672 (8th Cir.
2011)( holding that mail does not satisfy delivery under
Rule 4); Peters v. United States, 9 F.3d 344, 345 (5th
Cir. 1993) (holding that certified mail does not satisfy
“delivery” under Rule 4); Green v. Humphrey Elevator
& Truck Co., 816 F.2d 877, 882 (3d Cir. 1987) (holding
mailing alone does not satisfy delivery under Rule 4(j)).
Pet. App. at 6a. In addition, the Eleventh Circuit cited
to Georgia case law to a holding in Camp v. Coweta
County, where the court held that Georgia state law
requires in-person service. Pet. App. at 7a. Camp v.
Coweta County, 625 S.E.2d 759, 761 (2006).

14
Lastly, the Eleventh Circuit found that Respondent
had not waived service of process. Pet. App. 7a. The
Eleventh Circuit reasoned that although objections to
service of process can be waived if not addressed in the
first responsive motion to the complaint. Pet. App. at
7a. Respondent had objected to service of process in
both his original Motion to Dismiss and his Motion to
Dismiss Petitioner’s First Amended Complaint. Pet.
App. at 7a. Both were Respondent’s first response to
each of Petitioner’s complaints. Pet. App. at 7a.
Therefore, there was no waiver of service. Id. The
Eleventh Circuit in reviewing the procedural facts of
this case, rightly followed the law. Petitioner failed to
properly effectuate service on Respondent. Thus, the
11th Circuit did not abuse its discretion by affirming the
dismissal of Petitioner’s claim.
III.

THE DISTRICT COURT AND ELEVENTH
CIRCUIT DUTIFULLY CONSIDERED
PETITIONER’S AMENDED COMPLAINT.

In Questions (D)(1) – (2), Petitioner asserts that the
lower courts “abused their discretion by not considering
the Petitioner’s content” and not applying a less
stringent standard to Petitioner. Pet. at vii. As
addressed above, the lower courts lacked jurisdiction to
address the merits of Petitioner’s claim. Supra at Sec.
1(B). However, both lower courts thoroughly considered
Petitioner’s jurisdictional arguments.
In its Order, the District Court specifically
addressed Petitioner’s arguments regarding service of
process and/or lack thereof under both federal and
state law. Resp. App. at Doc. 48-66. Similarly, the
Eleventh Circuit analyzed Petitioner’s arguments

15
concerning service of process under both federal and
state law. Pet. App. at 4a – 7a. Both courts found that
neither federal nor state law authorized service via
certified mail. Id. at 7a.
Furthermore, with respect to Petitioner’s pro se
status, in its Order, the District Court considered the
Eleventh Circuit’s decision in Natty v. Morgan, 615
F.App’x 938 (11th Cir. 2015) when determining
whether Petitioner’s pro se status absolved him of
complying with FED. R. CIV. P. 4(e). Resp. App. 55-56.
Consistent with the Eleventh Circuit’s previous
holdings, the District Court answered this inquiry in
the negative. This holding is also consistent with this
Court’s previous holding in McNeil v. U.S., 508 U.S.
106 (1993). In McNeil, this Court held that “we have
never suggested that procedural rules in ordinary civil
litigation should be interpreted so as to excuse
mistakes by those who proceed without counsel.”
McNeil, 508 U.S. at 113. Thus, this Court has
previously held that a petitioner’s pro se status does
not absolve them of adhering to the procedural rules.
Id. Accordingly, Petitioner’s Petition should be denied
as his pro se status does not excuse his failure to serve
Respondent Dumas pursuant to FED. R. CIV. P. 4.
Petitioner’s pro se status has been considered and
given the requisite deference. However, his pro se
status does not excuse Petitioner from adhering to the
Federal Rules of Civil Procedure. Thus, Petitioner’s
failure to serve Respondent Dumas in conformance
with FED. R. CIV. P. 4, and not his pro se status, led to
the dismissal of his Amended Complaint.

16
IV.

THE DISTRICT COURT AND ELEVENTH
CIRCUIT CONSIDERED ALL RELEVANT
CASE AND STATUTORY LAW

In questions (D) (3) and (D) (4), Petitioner asserts
that the lower court only considered the cases favorable
to the Respondent and questioned whether the Federal
Courts have the authority to determine whether a
party has violated another party’s Constitutional
Rights. Petitioner’s brief at viii.
The District Court and Eleventh Circuit rightly
considered all relevant statutory and case law and
correctly applied it. Both the District Court and the
Eleventh Circuit reviewed the law as it pertained to
issues raised. The threshold issue was service of
process. Pet. App. at 4a – 7a. Petitioner failed to
properly serve Respondent. Id. at 7a. Petitioner never
complied with Rule 4 by personally serving
Respondent. Id. Petitioner’s subsequent filing of the
first amended complaint was insufficient since there
was insufficient service with initial complaint and
there was no waiver of service. Both the District Court
and the Eleventh Circuit gave extensive analysis of this
issue under both Federal and State law. Pet. App. at
4a – 7a. The District Court held and the Eleventh
Circuit affirmed that Petitioner failed to properly serve
Respondent under Rule 4. Id. The courts could not go
beyond established statutory and case law to find in
Petitioner’s favor. Petitioner simply did meet the
threshold procedural requirement of personal serving
the Respondent in this case.
Lastly, the Federal Courts can determine whether
a person has violated the Constitutional Rights of

17
another person. The written acknowledge of such is
the holding of the court. However, the case must be
properly brought before the court. A citizen is entitled
to due process of law under the Constitutions of both
the United States and their respective State. Such due
process requires that a citizen be given service of
process with notice of such a complaint made against
them. Service of Process under Rule 4 requires that
the citizen be personally served with such notice. FED.
R. CIV. P. 4. After proper service has been effectuated,
the citizen may then file responsive pleading. FED. R.
CIV. P. 7; FED. R. CIV. P. 12. Once properly served
under Rule 4, plaintiff can amend their pleading and
serve defendant under Rule 5. FED. R. CIV. P. 5.
Petitioner in this case, failed to properly serve the
Respondent under Rule 4. Thus, the courts did not
have proper jurisdiction to hear the case because of
Petitioner’s failure to properly serve the Respondent.
Resp. App. 56-57. Upon the proper filing of the Motion
to Dismiss, the District Courts rightly dismissed and
the 11th Circuit rightly affirmed Petitioner’s case. Id.
Petitioner’s writ of certiorari must be denied as there
is no case or controversy that this court should consider
in this matter.
CONCLUSION
For the foregoing reasons, neither the District Court
nor the Eleventh Circuit erred in granting Respondent
Dumas’ Motion to Dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(5), for insufficient service of
process. Petitioner failed to properly serve Respondent
Dumas and this defect cannot be cured through actual
knowledge. Furthermore, the District Court properly

18
denied Petitioner’s Motion for Reconsideration due to
his failure to introduce any new facts or law to support
his Motion. Accordingly, Respondent Dumas is entitled
to dismissal of Petitioner’s claims in their entirety and
his Petition for Writ of Certiorari must be denied.
Respectfully submitted,
REGINALD C. MARTIN
Senior Assistant City Attorney
Counsel of Record
STACI J. MILLER
Assistant City Attorney
City of Atlanta Law Department
55 Trinity Avenue, Suite 5000
Atlanta, Georgia 30303
(404) 546-4100
remartin@atlantaga.gov
sjmiller@atlantaga.gov
Counsel for Respondent
Dexter Dumas

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A First Amended Complaint in the
United States District Court Northern
District of Georgia
(September 19, 2018) . . . . . . . . . . App. 1
Appendix B Defendant Dexter Dumas’ Motion to
Dismiss Plaintiff’s First Amended
Complaint and Incorporated Brief by
Special Appearance in the United
States District Court Northern
District of Georgia
(October 1, 2018) . . . . . . . . . . . . . App. 41
Appendix C Order in the United States District
Court Northern District of Georgia
(November 8, 2018). . . . . . . . . . . App. 48
Appendix D Motion for Relief from Judgment
Pursuant to Fed. R. Civ. P. 60 (b) and
Plaintiff Requests That the Case Be
Re-Opened, and Entry of Default
Judgment Be Addressed in the United
States District Court Northern
District of Georgia
(November 29, 2018) . . . . . . . . . . App. 67
Appendix E Order Denying Petition for Panel
Rehearing in the United States Court
of Appeals for the Eleventh Circuit
(October 28, 2019) . . . . . . . . . . . . App. 75

ii
Appendix F Notice of Appeal in the United States
District Court Northern District of
Georgia
(January 8, 2019) . . . . . . . . . . . . App. 77

App. 1

APPENDIX A
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
Civil Action File
No. 1:18-CV-3817
[Filed September 19, 2018]
___________________________________
DAVID THORPE, an individual,
)
)
Plaintiff,
)
)
v.
)
)
DEXTER DUMAS, an individual,
)
GEORGE JENKINS, an individual, )
LAUREN BOONE, an individual,
)
JEFFREY S. CONNELLY, an
)
individual, FANI WILLIS, an
)
individual, and URAL GLANVILLE, )
an individual,
)
)
Defendants.
)
___________________________________ )
FIRST AMENDED COMPLAINT
COMES NOW David Thorpe, the plaintiff in the
above captioned matter and pursuant to Federal Rule
of Civil Procedure 15-1 (b), respectfully files this the
first amended complaint. The plaintiff seeks to amend

App. 2
the original complaint to assist and clarify the
statement of claims for the Defendants’ counsel.
(a) Please note the removal of FCDA an entity from the
complaint (b) please note the amendment in the claims
(counts) section (c) small grammatical corrections
throughout.

App. 3
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
Civil Action File
No. 1:18-CV-3817
[Filed September 19, 2018]
___________________________________
DAVID THORPE, an individual,
)
)
Plaintiff,
)
)
v.
)
)
DEXTER DUMAS, an individual,
)
GEORGE JENKINS, an individual, )
LAUREN BOONE, an individual,
)
JEFFREY S. CONNELLY, an
)
individual, FANI WILLIS, an
)
individual, and URAL GLANVILLE, )
an individual,
)
)
Defendants.
)
___________________________________ )
FIRST AMENDED COMPLAINT
COMPLAINT FOR DAMAGES AND
JURY TRIAL DEMAND
Plaintiff, DAVID THORPE, (hereinafter referred to
as “Thorpe”), individually, and via pro se submission,
brings this Complaint for Damages and Jury Trial
Demand against Defendants DEXTER DUMAS
(hereinafter referred to as “Detective Dumas”),
GEORGE JENKINS (hereinafter referred to as “ADA

App. 4
Jenkins”), LAUREN BOONE (hereinafter referred to as
“ADA Boone”), JEFFREY S. CONNELLY (hereinafter
referred to as “ADA Connelly”), FANI WILLIS
(hereinafter referred to as “Deputy Willis”), FULTON
COUNTY DISTRICT ATTORNEY’S OFFICE
(hereinafter referred to as “FCDA”) and URAL
GLANVILLE (hereinafter referred to as “Glanville”)
(collectively referred to as “Defendants”), and in
support of his claims, states the following:
NATURE OF COMPLAINT
What occurred here is a complete failure of the
American Justice system, courtesy of the official’s
entrusted to uphold it. Beginning with, the dishonest
police investigator, to the poor advice from two sitting
judges ( on record), and every attorney in-between (in
Thorpe’s opinion essentially three Judas types for the
defense and four status seekers for the state.)
Things just don’t happen, people make choices and
the choices that were made by said officials pertaining
to my arrest, detainment, and twenty-seven months
futile prosecution were void of ... honor, virtue,
rectitude, impartiality, objectivity, and righteousness.
The problem lies with comfort, simply put, these
officials are so accustomed to our broken justice system
and how easy it makes everyone’s job (via the plea).
Their weak human nature’s, unfortunately, allows
them to forget their oaths along with fundamental
fairness. Defendants become mere numbers thrown
into a system that has forgotten to seek justice yet opt
to do away with alleged criminology quickly and
efficiently ... WOW!

App. 5
Too many times our courts forget that justice is the
primary goal! Therefore, pertaining to my ordeal, then
American Justice (itself) must be certainly in question.
When the abuse of authority coupled with
fundamentally unfair treatment of, yet another Black
Male (by all court officials) can be allowed to slip
through any legal technicality or grimy loop hole.
Thorpe’s claims in this action are a direct and
proximate result of defendants’ negligent, willful, and
wrongful conduct in connection with Thorpe’s unlawful
2014 arrest, detainment, and the subsequent deficient
prosecution.
Thorpe’s nightmare began in July of 2014, and he
continues to suffer from the anguish of defendants’
wrongful actions and failures of duty. Thorpe was
unlawfully arrested and subsequently detained based
on, misrepresentations and omissions from a sworn
police officer. Adding insult to injury, the FCDA and its
team of professionals “bound by oaths to seek justice
for all” then stepped outside the bounds of decency by
disregarding their oaths. Thorpe’s prosecution lacked
impartiality and the charges against him were clearly
never investigated to the full extent (the laws of
Georgia article 3(c)).
As a result of Defendants’ malicious wrongful
actions and failure to act within the state of Georgia
and the Constitutional guidelines. Thorpe lost his full
freedom for 21 days and was subsequently deprived of
liberty and possessions (via an ankle monitor), for an
additional 586 days.

App. 6
As the claims herein arise from violations of
Thorpe’s civil rights granted to each and every
American citizen, Thorpe brings forth claims under 42
U.S. Code § 1983. Additionally, Thorpe brings forth
claims for Violation of Due Process and Intentional
Infliction of Emotional Distress.
JURISDICTION AND VENUE
1.

This court has subject matter jurisdiction over
this action under 28 U.S. Code § 1331, the
claims herein arise under the Constitution, laws,
or treaties of the United States.

2.

The proper venue in the United States District
Court for the Northern District of Georgia,
under 28 U.S. Code §1391(b) (2), which states
that the venue is proper in “a judicial district in
which a substantial part of the events or
omissions giving rise to the claim occurred, or a
substantial part of property that is the subject of
the action is situated.”

3.

Since the claims herein present a federal
question. A substantial part of the events giving
rise to Thorpe’s claims occurred in this judicial
district. Jurisdiction and venue are properly
established before this court.
PARTIES

4.

Plaintiff Thorpe is sui juris before this court, a
natural person over the age of 18, and a citizen
residing in this district.

App. 7
5.

Defendant Detective Dumas is sui juris before
this court, a natural person over the age of 18,
and upon information and belief, a citizen
residing in this district. At all material times
herein, Detective Dumas, was a police officer
within the Atlanta Police Department under
Badge #3870.

6.

Defendant ADA Jenkins is sui juris before this
court, a natural person over the age of 18, and
upon information and belief, a citizen residing in
this district. At all material times herein, ADA
Jenkins, was an Assistant District Attorney, an
officer of the court, within the Fulton County
District Attorney’s Office.

7.

Defendant ADA Boone is sui juris before this
court, a natural person over the age of 18, and
upon information and belief, a citizen residing in
this district. At all material times herein, ADA
Boone, was an Assistant District Attorney, an
officer of the court, within the Fulton County
District Attorney’s Office.

8.

Defendant ADA Connelly is sui juris before this
court, a natural person over the age of 18, and
upon information and belief, a citizen residing in
this district. At all material times herein, ADA
Connelly, was an Assistant District Attorney, an
officer of the court, within the Fulton County
District Attorney’s Office.

9.

Defendant Deputy Willis is sui juris before this
court, a natural person over the age of 18, and
upon information and belief, a citizen residing in

App. 8
this district. At all material times herein,
Deputy Willis, was a Deputy District Attorney,
an officer of the court, within the Fulton County
District Attorney’s Office with (upon information
and belief) supervisory powers over ADA
Jenkins, ADA Boone, and ADA Connelly.
10.

Defendant Glanville is sui juris before this court,
a natural person over the age of 18, and upon
information and belief, a citizen residing in this
district. At all material times herein, Glanville,
was a judicial officer of the court within Fulton
County.
RELEVANT FACTUAL ALLEGATIONS

12.

On or about July 17, 2014, the Atlanta Police
Department received a handwritten complaint
filed by the alleged victim, Brett Tittle.

13.

Atlanta Police Department failed to exercise
decency by granting Thorpe his de facto privilege
to an impartial investigation. Thorpe, upon
hearing of a possible criminal investigation,
contacted and left detailed messages on eight
different occasions. While, Willie Thorpe (his
father) made two additional attempts ... to NO
avail. The Atlanta Police Department failed to
follow their own protocol by not returning any
calls. (See attempted contacts, no call back
“Exhibit A”). Note: Without contacting Thorpe,
Detective Dumas sought an arrest warrant for
the capital felony of armed robbery plus battery,
empathizing that it was substantial.

App. 9
14.

In an abhorrent oath breaching effort to secure
the unconstitutional arrest of Thorpe, Detective
Dumas, with full knowledge of the handwritten
complaint of the alleged victim - fueled with
gross confidence in the weak nature of American
Justice towards individuals of a particular
demographic, purposely omitted and staged
material facts. Electing to paraphrase a clearly
falsified “police narrative” while deceitfully and
recklessly excluding all the probability reducing
elements of the alleged victims handwritten
complaint (???) Grimy. You the reader, must ask
yourself - in what fundamentally “fair”
investigation, does a seasoned investigator allow
a police narrative generated two weeks after an
alleged event, to supersede an alleged victims
hand written complaint written hours after an
alleged event??? The answer is disturbingly
simple “mischaracterization”: “THE ALLEGED
VICTIMS ACCOUNT LACKS THE
BELIEVABILITY, LET ALONE CREDIBILITY
TO EFFECTUATE AN ARREST FOR SUCH A
SERIOUS CRIME (BEAR IN MIND, THERE
WAS NO PHYISCAL EVIDENCE OR
WITNESSES.)” Dumas and the Atlanta Police
Department cannot get their stories straight as
to the whereabouts of Tittles hand written
complaint. (See email threads “Exhibit B”)

15.

In an abhorrent oath breeching effort to secure
the unconstitutional arrest and detainment of
Thorpe for a Capital Felony, Dumas, the fallen
servant knowingly provided the Fulton County
Magistrate Court and the FCDA’s with a

App. 10
falsified affidavit to obtain an arrest warrant
and to secure an indictment. Yet another
Government Machiavellian stating, “to the best
of their knowledge” then commencing to omit,
lie, and stage events (perjured) to secure favors
from other government officials with success.
(See the corrupted affidavits “Exhibit C”
16.

The alleged victims hand written complaint was
withheld from the FCDA’S office and the grand
jury. Dumas fully knew that the probability of
the alleged events would come under instant
scrutiny and fail to accommodate any
reasonable, justice seeking persons earnest
threshold for probable cause existing. A true and
accurate copy of Tittles complaint was obtained
by ADA Connelly in March of 2016 and is in the
states possession.

17.

Thorpe was arrested for armed robbery and
battery on August 2, 2014 (with no bond set).
Thorpe made his first appearance on August 4,
2014 and because of the capital felony charge,
Thorpe was denied bail and informed that any
bond issues had to be heard by a higher court.
Thorpe without being heard “once” (an outright
underhanded undermine of substantive due
process) was indicted for armed robbery,
aggravated assault, and battery a mere 5 days
after, said appearance. (Without any
investigation from the ADA’s office.) The charges
brought against Thorpe on behalf of the FCDA’S
Office, illustrates prosecutorial impropriety at
its pitiful norm. It is imperative that you should

App. 11
note, Thorpe a 47-year-old black male had No
previous theft, weapons charges, or arrests. In
fact, the FCDA’S office, only possessed a police
narrative of an alleged incident, and a very brief
statement from the alleged victim. No witness’s
nor creditable evidence (undermining the true
definition of probable cause). How can someone
be indicted, for a capital felony, so quickly under
these circumstances? Thorpe calls it...
Prosecutorial bullying!
18.

Adding insult to injury the state essentially
pretended to assign Thorpe an attorney at his
first appearance. Note, Thorpe never engaged let
alone met with said attorney Reona F. Bray.
Thorpe’s first contact with what he thought was
his defense lawyer occurred while incarcerated
on or around 8/11/2014. Attorney Tamika
Hrobowski-Houston represented herself as
Thorpe’s attorney on her visit stressing the
serious nature of the indictment and expressing
how expensive it could be if it went to trial.
Completely insulting Thorpe by mentioning the
term plea. Subsequently, Hrobowski-Houston
would remove herself from the case and bill
Thorpe for attorney services. Thorpe found out
much later that this young lady never even
announced her entry despite being prompted to
by the case manager Edward Chamberlin.
Thorpe is scratching his head! Thorpe states
what self-respecting attorney would believe or
feel they have any leverage against or with the
states attorney without announcing their entry
as the defense attorney of the accused???

App. 12
19.

It is imperative to note that pertaining to the
unconstitutional prosecution of Thorpe, the
FCDA office had knowledge and were in
possession of evidence that refuted their
fundamentally unfair charges. With the ill deeds
of the Atlanta Police Department considered, the
lack of true probable cause (all creditable
evidence considered) was the same on
September 10, 2014 (30 days after the
indictment) ...as on October 20, 2016 (dismissal
of all indicted charges). Why couldn’t these
Ministers of Justice simply have done the
morally correct deed from the start, instead of
causing irreparable suffering to a law-abiding
citizen and his family?

20.

Beginning with ADA Jenkins, on or about
August 18, 2014, Thorpe, through his Attorney
Jeffrey Slitz requested Brady material from
ADA Jenkins.

21.

ADA Jenkins chose not to address the requested
Brady material. (per the norm)

22.

In fact, ADA Jenkins, with full knowledge that
he lacked the credible evidence necessary to
secure a conviction against Thorpe, elected to
proceed with the unwarranted prosecution of
Thorpe.

23.

ADA Jenkins willfully failed to arrange a
meeting with Thorpe or his attorney in an effort
to amicably resolve the pending criminal
charges. (per the norm)

App. 13
24.

At no time did ADA Jenkins, make a reasonable
attempt to adequately and reasonably
investigate the truth. Instead, ADA Jenkins,
pompously and clearly was following a standard
operating procedure, actively prosecuted a case
relying on defendant’s fear knowing fully that
proving guilt before a jury would be impossible.
But, a plea (rooted in fear) very likely.

25.

On or about September 10, 2014, ADA Jenkins
came into the knowledge of exculpatory evidence
which refuted the probability of the armed
robbery which Thorpe was being prosecuted for,
had occurred.

26.

On or about September 10, 2014, ADA Jenkins
came into the knowledge of exculpatory evidence
which refuted the probability of the aggravated
assault Thorpe was being prosecuted for, had
occurred.

27.

On or about September 10, 2014, ADA Jenkins
came into the knowledge of exculpatory evidence
which refuted the probability of battery Thorpe
was being prosecuted for was of a criminal
nature.

28.

On or about January 15, 2015 (nearly five
months after Thorpe’s indictment), ADA Jenkins
was forced to meet with Thorpe’s attorney via a
court schedule conference ...per Thorpe’s
Attorney, the conference lasted about one
minute. ADA Jenkins ridiculous and careless
position was, and I quote - “Your guy stabbed my
guy, robbed him, and the state was ready for

App. 14
trial!” The sad and irresponsible problems with
that statement was contained in the states
discovery package that contained a complete
medical report from Grady Hospital???
Absolutely No mention of any injury caused by
a weapon of any kind as a clear contradiction of
the alleged event per the alleged victim.
(unbelievable this ADA didn’t even read his own
discovery package.) Dumas was the first ADA
that failed to act in regard to investigating the
charges to the full extent.
29.

Thorpe innocently, yet unaware of how the
system works, hand delivered a letter to the
Judge’s Chambers and the ADA’s office on
March 5, 2015. Pleading with the court and the
prosecution that he was a victim of a false report
of a crime. Requesting them to allow him to
separate from his attorney and submit (or
resubmit) all the evidence to prove it (Thorpe’s
attorney entered said letter into the courts record
see “Exhibit D”)

30.

Thorpe clearly disgusted with yet another
defense attorney flapping his jaws about the
expense of a trial and yet again enters the notion
of the benefits of a plea. “Are you kidding me?”
Adding insult to injury, Slitz never filed a
motion requesting a speedy trial with full
knowledge that it was within Thorpe’s
Constitutional Rights something Thorpe and his
father requested from the onset. As Thorpe looks
back now it is clear to him that his defense
attorneys thought that they could convince him

App. 15
to consider a plea. Never intending or preparing
for a trial! Thorpe askes you the reader “Is this
what American Justice has come to?”
31.

Thorpe, gaining some knowledge of this justice
system filed his own discovery responses (See
“Exhibits E”) in April 2015 (and subsequently
more in June of 2015) insuring and documenting
that the courts had his exculpatory evidence.
Thorpe still being forced to wear an ankle
monitor and report for supervision (weekly) at
his own expense actually thought and believed
that once the government for sure understood
the circumstance, his traumatic ordeal would
end (wishful, but silly). The filling of these
letters and motions provided the government the
opportunity to do the honorable thing under the
circumstances but No!! The government failed
Thorpe and his family with arrogance.

32.

At some point in and around April of 2015 for
reasons unknown to Thorpe, Jenkins took a back
seat in the prosecution and ADA Boone took
over. Early that summer at yet another so-called
trial date, Thorpe had to persuade his attorney
to address a motion Thorpe had filed. Pleading
with him to argue that eleven months of wearing
an ankle monitor was mentally cruel and
excessive for the nature of this case and how it
was impacting Thorpe’s life. The defendant
states that on that occasion his attorney Melvin
Dansby and ADA Boone approached the bench
for a private meeting please note literally in
under 12 seconds, Thorpe’s attorney headed

App. 16
back and stated that the judge refused to hear it,
Dansby gave no reasonable nor responsible
explanation. Dansby stated that he would bring
the matter up at a later date. The defendant
feels, that you the reader should understand
that his attorney just allowed a Superior Court
Judge to violate client’s procedural due process
of a hearing.
33.

In spite of possessing exculpatory evidence, ADA
Boone failed to seek justice by failing to initiate
the dismissal of any charges against Thorpe.

34.

Clearly Boone had to know this unfounded,
unconstitutional prosecution and her failure to
investigate the charges to the full extent would
cause emotional, physical, and financial distress
upon Thorpe.

35.

ADA Boone’s actions were calculated and
Boone’s failure to act in regard to investigating
the charges to the full extent. Leaving only one
purpose in mind: to break the defendants will to
fight. Essentially trying to ‘force his hand’ at
accepting a plea bargain. The FCDA’s office have
a demonstrated history of breaking accused
defendant’s spirits in a knowingly calculated
scheme in order to secure plea agreements. (95%
or perhaps higher.)

36.

With no upright chance of prevailing in this
prosecution, on or about August 5, 2015, ADA
Boone still recommended that Thorpe plead
guilty to the charges, serve 10 years in prison,
followed by 5 years of probationary supervision.

App. 17
Said recommendation was declined by
Thorpe.
37.

Throughout her tenure, ADA Boone e-mailed
Thorpe utilizing his personal e-mail address, in
which she questioned alleged events
surrounding the alleged incident. Thorpe was
represented by counsel at the time, Attorney
Melvin Dansby, who did nothing to address this
ethical violation on the part of ADA Boone. (A
copy of said e-mails are attached “Exhibit F.”)

38.

As the unwarranted prosecution of Thorpe
continued, the FCDA’s office assigned ADA
Connelly to Thorpe’s case.

39.

Either late February or early March of 2016,
enters ADA Connelly, “the closer” took over the
wheels of injustice against Thorpe.

40.

ADA Connelly, much like his predecessors, was
in possession of exculpatory evidence, including
a confession from the alleged victim that the
armed robbery “did not happen.” ADA Connelly’s
failure to act in regard to investigating the
charges to the full extent solidifies ADA
Connelly as the third District Attorney the laws
of Georgia Article 3 (c) and Article 4 (b) (d) for
this, a noncomplex case. (Person A alleged
person B committed an act against them no
witness, no evidence yet exculpatory evidence to
refute.)

41.

At the March 25, 2016 hearing, Thorpe inquired
of his counsel and the court as to why there was

App. 18
no follow-up on the motion filed requesting the
removal of Thorpe’s ankle monitor.
42.

Glanville also inquired of Thorpe’s counsel,
Melvin Dansby, as to why no motion had been
filed to have Thorpe’s ankle monitor removed.
When prompted, Thorpe’s clearly unseasoned
attorney, Melvin Dansby, dropped the bomb “on
record” as to why stating “the judge had refused
to hear or modify the bond condition”. Yet again
another court official violating procedural due
process. (See attached “Exhibit G.”)

43.

Glanville had approximately nine months of
opportunity prior to the March 25, 2016 hearing
to address Thorpe’s ankle monitor but failed to
adequately address the issue in open court.

44.

Additionally, Glanville failed to address Thorpe’s
request for a bond modification in a reasonable
timeframe. (Thorpe originally filed the motion
on April 10, 2015.)

45.

Thorpe was unduly and unjustly placed under
an excessive bond and was not afforded proper
due process in having his requests for a bond
modification heard by Glanville.

46.

ADA Connelly led the charge against Thorpe in
arguing for a denial of Thorpe’s request for a
bond modification. In fact, ADA Connelly
brought forth Thorpe’s previous non-convicted
arrest allegations in an effort to bolster his
argument for denial. (See transcript “Exhibit H”)

App. 19
47.

ADA Connelly’s actions in asking the court to
reject Thorpe’s request to remove the ankle
monitor was knowingly done for the purpose of
continuing to deprive Thorpe of his full liberty.

48.

ADA Connelly’s actions were wholly
unreasonable as demonstrated by the
exculpatory evidence and based on the fact that
Thorpe had obeyed and met all of the release
requirements. (For 19 months)

49.

On or about April 4, 2016, without Thorpe’s
knowledge, ADA Connelly requested and
entered Thorpe’s case into “dead docket” status.
Thorpe adamantly believed that his attorney,
Melvin Dansby, knew and withheld this
information from him yet Dansby claimed he
knew nothing of the dead docket order in fact he
told the Georgia Bar that the state prosecutor
perhaps was engaging in prosecutorial
misconduct. None the less Dansby did nothing to
correct or address the underhanded backdoored
“dead docket”.

50.

Thorpe filed (as a pro se litigant) a Motion to
Reinstate the Case and Remove from dead
docket, because his attorney would not. Despite
the fact that Judge Glanville did sign that
original questionable order, he had to grant the
removal of the dead docket and reinstate the
case. That order was signed on August 2, 2016.

51.

Shortly after Judge Glanville recused himself
from the case, Thorpe was given the right to
represent himself by Judge John Goger on

App. 20
September 5, 2016. Eight hundred and eleven
days (811) into this disgraceful ordeal, the state
of Georgia, faced with realization that their
standard operating procedures were not going to
work with this black man. They disposed of
the case noelle pro sequi. (October 20, 2016)
52.

Deputy Willis, at all time’s material, oversaw
the actions of ADA Jenkins, ADA Boone, and
ADA Connelly. Willis’s duties were not
prosecutorial but certainly none the less
administrative and supervisory. It was Willis
whom assigned four different ADA’s for this noncomplex case. (That can not be normal.) Since
three of the ADA’s all failed to act in regard to
investigating, that in its self is a training issue.
Willis the supervisor is directly responsible for
said issue.

53.

Deputy Willis knew the facts and circumstances
of Thorpe’s case. Please see (“exhibit 10” is an
email from ADA Boone informing the defense
that her supervisor none other than Deputy Fani
Willis wanted to meet with counsel.)

54.

Deputy Willis at one point even told Thorpe’s
previous attorney that Thorpe “should take
something.” Deputy Willis was obviously
indicating that Thorpe should take a plea
bargain. Please see (“exhibit 10 a” is an audio
tape of Thorpe’s attorney speaking in regard to
an offer the state has made the day before a
special trial. This illustrates the prosecutions
pitiful attempt to have an innocent man take a
meager plea – key work innocent.)

App. 21
55.

Pertaining to this case, (perhaps many many
more) Deputy Willis along with the FCDA failed
to act as ministers of justice. (not even close)

56.

The record shows four district attorneys, but
Thorpe would be remiss not to mention another
deputy district attorney that displayed a tactical
and pitiful method to snare Thorpe into the
state’s web of spirit breaking. As if it was not
enough, Thorpe was forbidden to visit his ailing
father out of state, while his dad still displayed
some signs of enjoyment of life (Due to bond
conditions.) In mid-February of 2015, Deputy
Ron Dixon who knew or should have known the
exact nature and status of Thorpe’s criminal
case, returned Judy Thorpe’s (Thorpe’s sister)
call and stated “The FCDA’s office was not going
to be able to be involved with assisting (perhaps
permitting Thorpe to see his gravely ill father
...showing no compassion, referred to a man
given days to live “sick or something”. (Really
Dixon) (See “Exhibit I” audio CD and physician
document)

57.

The inability to be humane or even decent,
in this type of situation in the midst of a
futile miscalculated prosecution is a
disgrace at the hands of the FULTON
COUNTY DISTRICT ATTONEYS OFFICE!!!

58.

Absolutely yes, the termination of their
pursuit of criminal charges against Thorpe was
made because the charges cannot be proven due
to the evidence being too weak for the FCDA’s
office to carry its requisite burden of proof

App. 22
(which Defendants knew all along), because the
evidence was fatally flawed in light of the claims
brought, and because ADA Jenkins, ADA Boone,
ADA Connelly, Deputy Willis, and the FCDA’s
office became doubtful that Thorpe was guilty
because Thorpe’s innocence was proven as a
matter of fact.
59.

Defendants acted in concert in a calculated and
sentinel scheme to deprive Thorpe of his civil
rights. Further, Defendants’ actions herein were
wrongful and malicious and clearly fall outside
the bounds of decency in any civilized society.
With exculpatory evidence in hand and knowing
that Thorpe was not guilty of the charges
brought against him, Defendants continued to
humiliate, intimidate, and elected not to
investigate nor drop the unwarranted charges.
To add insult to injury the Georgia Bar (the
general counsel) shamefully refused to discipline
the seven lawyers mentioned in this complaint.

60.

As a direct and proximate result of Defendants’
actions or failure to act, Thorpe has been
emotionally, physically, and financially
damaged.
CLAIMS
COUNT ONE – VIOLATION OF
42 U.S. CODE §1983

61.

Thorpe incorporates by reference all other
paragraphs of this complaint as if fully set forth
herein.

App. 23
62.

Defendants’ willful and wrongful actions and
failures to act deprived Thorpe of his
constitutional right to liberty, property, and
adversely affected Thorpe’s God given right to
the pursuit of happiness.

63.

Thorpe was unconstitutionally arrested,
charged, detained, and placed under supervision
for a period of 586 days. Clearly an unreasonable
seizure. During this time, Thorpe was deprived
of the freedoms promised to every United States
Citizen.

64.

Thorpe states that “he would not wish the
emotional distress, depression, fear, anxiety, and
guilt that he suffered not even on Thorpe’s
stated Defendants’.

65.

An officer of the law that willingly and
knowingly misrepresent or omits information
given by an alleged victim to secure an arrest
and or detention is corrupt, and his actions are
cognizable claims under § 1983. See the United
States Constitution Amendment IV.

66.

Defendants knew, or should have known, that
there was no evidence to indicate that Thorpe
was truly guilty of the crimes charged. In spite
of said knowledge, Thorpe was arrested,
detained, charged, and subsequently prosecuted
for three serious crimes.

67.

At all times material, defendants were acting
under the color of state law.

App. 24
68.

“In order to state a claim for relief under 42 U.S.
Code §1983, a plaintiff must satisfy two
elements. First, a plaintiff must allege that an
act or omission deprived him “of some right,
privilege, or immunity secured by the
Constitution or laws of the United States.” See
Hale vs. Tallapoosa County, 50 F.3d 1579, 1582
(11th Cir. 1995). Second, a plaintiff must allege
that the act or omission was committed by “a
person acting under color of state law.” Id.

69.

Both requisite elements exist here.

70.

Defendants’ actions and failures to act deprived
Thorpe of his right to liberty, and property
secured by the United States Constitution.
Along with infringing on Thorpe’s fundamental
rights to procedural due process.

71.

Defendants’ actions and failures to act were
committed by individuals who were acting under
the color of state law.

72.

As a direct and proximate result of defendants’
actions and failures to act, Thorpe’s
constitutional right to liberty and property was
deprived or compromised. Thorpe states even
now nearly four years later his God given right
to happiness has been debased by the United
States government.

73.

As a direct and proximate result of defendants’
actions and failures to act, Thorpe has been
emotionally, physically, and financially
damaged.

App. 25
WHEREFORE, Thorpe, hereby seeks all relief
available under the law. To include actual financial
losses, compensatory damages, punitive damages,
attorney fees, costs pursuing this action, declaratory
relief, (a validation and written acknowledgement of all
proven violations and misconducts including criminal)
trial by jury, and all other relief just and proper on the
premises.
COUNT TWO- VIOLATION OF DUE PROCESS –
FOURTEENTH AMENDMENT
74.

Thorpe hereby incorporates by reference each of
the preceding paragraphs as if fully set forth
herein.

75.

The due process clause of the fourteenth
amendment prohibits the states from depriving
“any person of life, liberty, or property, without
due process of law.”

76.

Defendants’ willful conduct and failures of duty
(mischaracterizing and omitting information to
obtain a warrant, continuing a prosecution with
the absence of probable cause, and denying an
American citizen the right to a fair hearing)
deprived Thorpe of his full liberty for a period of
21 days and subsequently compromised his
liberty, state of mind, and monetary property for
approximately 5 86 days.

77.

As a direct and proximate result of Defendants’
actions and failures to act, Thorpe has been
emotionally, physically, and financially
damaged.

App. 26
WHEREFORE, Thorpe, hereby seeks all relief
available under the law. To include actual financial
losses, compensatory damages, punitive damages,
attorney fees, costs pursuing this action, declaratory
relief (a validation and written acknowledgement of all
proven violations and misconducts including criminal),
trial by jury, and all other relief just and proper on the
premises.
COUNT THREE -VIOLATION OF THE
FOUTH AMENDMENT
78.

Thorpe hereby incorporates by reference each of
the preceding paragraphs as if fully set forth
herein.

79.

Pertaining to Thorpe’s right to be secure in his
person against unreasonable seizures Thorpe’s
arrest and subsequent detention was based on
false and misleading statements known to
Detective Dumas at all material times and in
addition, calculated omissions. Therein is the
violation of Thorpe’s Fourth Amendment Rights.
Before an arrest warrant is issued the Fourth
Amendment requires a truthful, factual showing
in the affidavit used to show probable cause. The
Constitution prohibits an officer from making
perjurious or recklessly false statements in
support of a warrant. See Kelly v. Curtis 21F.3d
1544.

80.

Absolutely, Detective Dumas’s conduct violated
this clearly established right.

81.

ADA Boone, ADA Connelly, and ADA Jenkins
elected not to investigate to the full extent,

App. 27
elected to ignore the red flag in their own
discoveries, and completely failed to seek justice
despite Thorpe’s discovery responses. It is these
oath breeching elements that contributed to the
pretrial depravation of Thorpe’s liberty.
82.

Deputy Willis in her supervisory and
administrative position knew or should have
known of said lack of investigations, of said red
flags in the state’s discovery, and of said
discovery responses filed by Thorpe. Deputy
Willis’s involvement and the continuation of
Thorpe’s unconstitutional and unfair prosecution
was paramount because it was Deputy Willis
that assigned four different prosecutors over the
course of 811 days to this non-complex case. The
records shall show that her supervisory and
administrative duties over the prosecutors were
evident. With full knowledge Deputy Willis was
quite aware of the lack of probable cause
producing her malice to the determent and
pretrial depravation of Thorpe. Absolute
immunity does not apply for See Imbler v.
Pachtman 424 U.S. 409 1976. The Supreme
Court articulated “distinction between absolute
immunity for prosecutorial acts and qualified
immunity for investigative or administrative
acts” ...See Burns v. Reed 500 U.S. 478 (1991).
The Supreme court states “prosecutors have only
qualified immunity for investigative acts...”

83.

The Supreme Court states absolute immunity
does not apply “when the functions of
prosecutors and detectives are the same,

App. 28
immunity that protects them is also the same.”
See 522 U.S. 118 (1997)
84.

Glanville’s refusal to hear arguments in regard
to a bond modification dealing with the removal
of Thorpe’s ankle monitor, indeed violated
Thorpe’s right to procedural due process but also
allowed the pretrial depravation of Thorpe’s
liberty, and excessive bond requirement to
continue.

WHEREFORE, Thorpe, hereby seeks all relief
available under the law. To include actual financial
losses, compensatory damages, punitive damages,
attorney fees, costs pursuing this action, declaratory
relief (a validation and written acknowledgement of all
proven violations and misconducts including criminal),
trial by jury, and all other relief just and proper on the
premises.
COUNT FOUR- VIOLATION OF THE
EIGHTH AMENDMENT
(Defendant Glanville)
85.

Thorpe hereby incorporates by reference each of
the preceding paragraphs as if fully set forth
herein.

86.

The eight amendment of the United States
Constitution and Article 1, section 1 paragraph
17 of the Georgia Constitution provides that
“excessive bail shall not be required.....”

87.

Thorpe filed a proper motion to the courts for
bond modification to no avail. Thorpe’s attorney
requested a hearing on a bond modification for

App. 29
the removal of the ankle monitor to no avail.
When Glanville stated “no!!” to a hearing and “I
am not modifying that bond!” Glanville stepped
outside the bounds of his jurisdiction by
violating an American Citizens Right to have his
attorney argue to why the bond modification
should occur. See Rankin v. Howard, (1980) 633
S.2d 844.
88.

Thorpe states “even before the date of said
violation, Thorpe’s bail requirement had become
excess.” Paying the 10% to the bond company is
one thing but having to pay the monthly expense
of the monitor in addition to a loss of wages
because of reporting to weekly supervision. Not
to mention the additional cost of commuting into
the city weekly. How the $375-$425 per month
for this unnecessary bond requirement caused
Thorpe to neglect other financial
responsibilities.

89.

Judicial immunity does not apply to Glanville.
This Defendant using the powers given to him
by the state of Georgia, absolutely did violate
Thorpe’s Constitutional Rights. “The essential
elements of due process of law are notice, an
opportunity to be heard, and the right to defend
in an orderly preceding.” See Fiehe v. R.E.
Householder Co., 125 SO. 2,7 (SLA 1929). Relief
is possible when a person in the position of a
judge does knowingly disregard Constitutional
and Civil Rights of others, his/her oath of office.
Take note Constitution Supreme Clause Article
VI clause 2 of the Constitution (this

App. 30
Constitution, and the laws of the United States
which shall be made pursuant thereof, .... shall
be the supreme law of the land: and the judges
in every state shall be bound thereby, anything
in the Constitution or laws of any state to the
contrary notwithstanding.) Absolute immunity
is still contrary and absolutely in direct conflict.
90.

Glanville failed to provide Thorpe with a timely
bond hearing in regard to the removal of
Thorpe’s ankle monitor, in spite of irrefutable
exculpatory evidence presented to the court.

91.

Congress enacted § 1983 and its predecessor, §2
of the Civil Rights Act of 1866, 14 Stat. 27, to
provide an independent avenue for protection of
federal constitutional rights. The remedy was
considered necessary because “state courts were
being used to harass and injure individuals,
either because the state courts were powerless to
stop deprivations or were in league with those
who were bent upon abrogation of federally
protected rights.” Mitchum v. Foster, 407 U. S.
225, 240 (1972). See also Pierson, at 558-564
(dissenting opinion) ( every Member of Congress
who spoke to the issue assumed that judges
would be liable under § 1983).

92.

As a result of Glanville’s refusing to grant
Thorpe a hearing regarding bond modification,
Thorpe suffered financial losses and emotional
distress. Thorpe is tormented with disgust for
the unjust self-protecting element of the United
States Justice System. Thorpe states “have we

App. 31
forgotten law should be reasoning free from
passion.”
WHEREFORE, Thorpe, hereby seeks all relief
available under the law, including equitable relief as
follows: issue declaratory relief (a validation and
written acknowledgement of all proven violations and
misconducts) as this court deems appropriate. Issue
other relief as this court deems appropriate and fair.
Award Thorpe costs of litigation.
COUNT FIVE- MALICIOUS PROSECUTION
93.

Thorpe brings forth a malicious prosecution
claim (GA Code § 51-7-40) against Detective
Dumas, ADA Boone, ADA Connlley, ADA
Jenkins, and Deputy Willis. Detective Dumas’s
lack of probable cause led to mischaracterize the
alleged victim’s statement. It is that lack of
probable cause yet his willingness to still obtain
an arrest warrant that brings about malice.
Through these actions Thorpe was subsequently
arrested, detained, and indicted for serious
crimes. Absolutely causing financial loss, mental
anguish, and physical scaring.

94.

ADA Boone, ADA Connlley, and ADA Jenkins
elected to continue the prosecution of Thorpe
despite the fact they lacked probable cause to
constitutionally pursue the charges. Therein lies
ADA Boone, ADA Connlley, and ADA Jenkins
malice.

95.

ADA Boone, ADA Connelly, and ADA Jenkins
elected not to investigate to the full extent,
elected to ignore the red flag in their own

App. 32
discoveries, and completely failed to seek justice
despite Thorpe’s discovery responses. It is these
oath breeching elements that contributed to the
pretrial depravation of Thorpe’s liberty, financial
loss, mental anguish, and physical scaring.
96.

Deputy Willis in her supervisory and
administrative position knew or should have
known of said lack of investigations, of said red
flags in the state’s discovery, and of said
discovery responses filed by Thorpe. Deputy
Willis’s involvement and the continuation of
Thorpe’s prosecution was paramount because it
was Deputy Willis that assigned four different
prosecutors over the course of 811 days to this
non-complex case. The records shall show that
her supervisory and administrative duties over
the prosecutors were evident. With full
knowledge Deputy Willis was quite aware of the
lack of probable cause producing her malice to
the determent and pretrial depravation of
Thorpe.

97.

Absolutely causing financial
anguish, and physical scaring.

loss,

mental

WHEREFORE, Thorpe, hereby seeks all relief
available under the law. To include actual financial
losses, compensatory damages, punitive damages,
attorney fees, costs pursuing this action, declaratory
relief (a validation and written acknowledgement of all
proven violations and misconducts including criminal),
trial by jury, and all other relief just and proper on the
premises.

App. 33
COUNT SIX- INTENTIONAL INFLICTION OF
EMOTIONAL DISTRESS
98.

Thorpe hereby incorporates by reference each of
the preceding paragraphs as if fully set forth
herein.

99.

In order to succeed on a claim for intentional
infliction of emotional distress, a party must
show (1) conduct which was intentional or
reckless (2) conduct which was extreme and
outrageous, (3) causation, and (4) severe
emotional injury. See Bridges vs. Winn-Dixie,
176 Ga. App. 27, 230, 335 S.E.2d 445 (1985).

100.

Further, Georgia courts have noted, “‘whether a
claim rises to the requisite level of
outrageousness and egregiousness to sustain a
claim for intentional infliction of emotional
distress is a question of law.” See Cooler vs.
Baker, 204 Ga. App. 787, 788, 420 S.E.2d 649
(1992) (citations omitted). “Recovery is
authorized only in those circumstances where
“the conduct has been so outrageous in
character, and so extreme in degree, as to go
beyond all possible bounds of decency, and to be
regarded as atrocious, and utterly intolerable in
a civilized community.” See Yarbrough vs. SAS
Systems. Inc., 204 Ga. App. 428, 429,419 S.E.2d
507 (1992).

101.

Defendants’ actions and failures to act, herein
clearly go beyond all possible bounds of decency.
Detective Dumas knew of the handwritten
complaint submitted by the alleged victim which

App. 34
clearly showed that the alleged crimes Thorpe
was charged with were extremely unlikely. This
information was not shared with the FCDA’s
office until after Thorpe had been arrested,
charged, and the prosecution had begun
(approximately 19 months later).
102.

Detective Dumas purposely and knowingly
misrepresented and omitted information from an
alleged victim’s handwritten complaint. “Taken
by him a day after the alleged incident and
staged an affidavit for the sole purpose of
securing an arrest warrant for Thorpe.

103.

Detective Dumas knew, or should have known,
that his falsified affidavit would be relied upon
in criminal court proceedings.

104.

Even after the exculpatory evidence had come
forth, ADA Jenkins, ADA Boone, ADA Connelly,
failed to act in accordance to the oath of office.
Furthermore, Deputy Willis clearly lacked the
ability to administer the required supervision
entrusted in her.

105.

Even after the exculpatory evidence had come
forth, ADA Jenkins, ADA Boone, ADA
Connelly’s failures to act led to the continued
depravation of Thorpe’s liberty, property, and
compounded to Thorpe’s emotional distress.
Deputy Willis clearly lacked the ability to
administer the required supervision entrusted in
her.

106.

Even after the exculpatory evidence had come
forth, ADA Jenkins, ADA Boone, ADA

App. 35
Connelly’s, failures to act led to the humiliation
and harassment of Thorpe by impressing upon
the court Thorpe’s guilt and culpability, in spite
of clear and convincing evidence to the contrary.
107.

Judge Glanville should have been the honorable
voice during these proceedings, but he outright
failed by clearly succumbing to his subjective
views towards Thorpe.

108.

Defendants’ absolutely acted disgracefully to the
detriment of Thorpe.

109.

The defendants’ careless disregard of the
guidelines of the United States Constitution
directly affected Thorpe’s closest loved ones as
well. The timing of Thorpe’s arrest and
unconstitutional prosecution could not have
been worse. During that summer of 2014, his
father, Willie Thorpe, had been given 12-18
months to live. Unfortunately, Willie Thorpe,
only lived 6 months. Thorpe fully comprehends
that the stress of the very serious implications of
his indictment compounded his father’s health
issues. Thorpe was his father’s power of attorney
for the last few years of his life and he was the
executor listed in his will. Thorpe’s freedom was
paramount to his father because Thorpe was
also the power of attorney for his mother, Cora
Thorpe and entrusted by his father to handle all
business aspects for her. Also, the mother of
Thorpe’s 10-year-old son, Mia Richardson, was
diagnosed with stage 4 ovarian cancer, which
eventually spread from her ovaries to her brain,
and bones. Thorpe absolutely blames the

App. 36
additional stress from his legal ordeal to
contributing to her rapid decline. Ms.
Richardson feared the possibility of her son
losing both of his parents. Her death (which she
had conceded to) and Thorpe’s incarceration. As
Ms. Richardson’s condition worsened, Thorpe
became her caregiver. Thorpe states that “Our
time together was constant, and she conveyed
her desire for Thorpe to take a plea, which
Thorpe could not take a plea. Ms. Richardson
feared the system, whereas, Thorpe could not
bow to it (this time)!!!” Can you the reader even
begin to imagine the kind of stress on the
parents? One is surely dying and the other is
facing capital felony time for events that did not
occur. Thorpe states “I lived it” (See POA and
death certificates “Exhibit J.”) The United States
Government has arrogantly removed large
chunks of joy from this citizen and loved one’s
lives. (Why???)
110.

As a direct result of Defendants’ actions and
failure to act, Thorpe has suffered severe
emotional distress. Thorpe now suffers from
anxiety and depression. Thorpe states that “a
pilot has been lit deep deep in his soul and mind,
in which the flame and its fumes are pure hate
towards the corrupt aspects of our justice
system!!! Thorpe recalls wanting to cut the ankle
monitor off the very next day after placement,
but NOOOOO he was chained for 585 more
days. Thorpe can’t explain the intense desire to
remove the parasite (monitor) always.
Currently, Thorpe is under the care of medical

App. 37
professionals and is prescribed mood balancing
medication. Thus far, the medication has been
successful notwithstanding some physical and
mental quirks, also, the long-term effects of the
medication are unknown at this time. These
conditions were not present prior to July 2014.
111.

As a direct result of Defendants’ actions and
failures to act, Thorpe suffered mental anguish
and physical scars. (See “Exhibit K” medical
documents and photos.)

WHEREFORE, Thorpe, hereby seeks all relief
available under the law. To include actual financial
losses, compensatory damages, punitive damages,
attorney fees, costs pursuing this action, declaratory
relief (a validation and written acknowledgement of all
proven violations and misconducts including criminal),
trial by jury, and all other relief just and proper on the
premises.
COUNT SEVEN- FALSE IMPRISONMENT
112.

Thorpe hereby incorporates by reference each of
the preceding paragraphs as if fully set forth
herein.

113.

False arrest or imprisonment is the unlawful
detention of the person of another, for any
length of time, whereby such is deprived of
his/her personal liberty.

114.

Detective Dumas did not have probable cause to
secure the arrest warrants herein. Detective
Dumas had knowledge that a capital felony

App. 38
initially has no bond, his intent to confine was
evident.
115.

Detective Dumas knowingly provided the
Magistrate Court of Fulton County with a
cleverly misrepresented affidavit to secure the
arrest of Thorpe. (See “Exhibit C.”) Detective
Dumas failed to submit the alleged victims
handwritten complaint to the FCDA’s office.
(Clearly because it lacked the necessary
probable cause.)

116.

Thorpe was subsequently detained as a result of
Dumas’s actions.

117.

“...probable cause is present when the
surrounding circumstances are sufficient to
prompt a reasonably cautious person to conclude
that an offense has been committed by the
arrestee.” See, e.g., Wilson vs. Attaway, 757 F.2d
1227, 1235 (11th Cir.1985).

118.

The surrounding circumstances here would not
prompt a reasonably cautious person to conclude
that an armed robbery had been committed by
Thorpe.

119.

As a direct and proximate result of his
unconstitutional arrest and false imprisonment,
which subsequently led to his post released
supervision and depravation of liberty. Thorpe
has been emotionally, physically, and financially
damaged.

WHEREFORE, because of the senseless and grimy
acts committed by this so called civil servant. Detective

App. 39
Dumas’s actions, subjected Thorpe to full loss of
freedom for 443 hours beginning with Thorpe’s arrest.
Thorpe missed his nine-year-old son’s first day of
school. Having to lie about his whereabouts to his child.
Thorpe was left in disbelief, fear, and stressed not
understanding why he couldn’t post a bail and get back
home. Thorpe was handcuffed in front of people that
respected him, placed in a concrete holding cell, and
required to sit on the floor because of overcrowding.
Thorpe was put through being photographed,
fingerprinted, and to strip and put on an unclean
county jumpsuit. Thorpe was demanded to carry his
mattress to his cell. Thorpe was required to occupy a
10x10 space with a complete stranger. Thorpe had to
deal with urinating and defecating five feet from said
stranger and vice a versa. The understaffing at the jail
exposed Thorpe to a 22-hour lockdown per day for 90 %
of his incarceration. Thorpe was subjected to eat
subpar food which included pork, causing diarrhea and
a weight loss of 23 pounds. Thorpe suffered what
appeared to be strep throat. Despite filling out proper
medical requests, Thorpe was still not seen by medical
personnel.
Throughout the entire stay being addressed in an
inferior manner by the jail staff. Thorpe hereby seeks
the relief of $1,360 per hour for this foul abuse of
authority.

App. 40
DEMAND FOR JURY TRIAL
Thorpe hereby demands a trial by jury on all triable
issues.
Dated: 09, 19th 2018.
Respectfully submitted,
/s/David Thorpe
David Thorpe
Pro Se Plaintiff
4902 Fielding Way
Stone Mountain, GA 30088
willcora@msn.com
fax # 1-888-828-0034
phone number 1-404-428-8276
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 41

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF GEORGIA
ATLANTA DIVISION
CIVIL ACTION NO.:
1:18-cv-03817-AT
[Filed October 1, 2018]
___________________________________
DAVID THORPE, an individual,
)
)
Plaintiff,
)
)
vs.
)
)
DEXTER DUMAS, an individual;
)
GEORGE JENKINS, an individual; )
LAUREN BOONE, an individual;
)
JEFFREY S. CONNELLY, an
)
individual; FANI WILLIS, an
)
individual; FULTON COUNTY
)
DISTRICT ATTORNEY’S OFFICE,
)
a governmental entity; and URAL
)
GLANVILLE, an individual,
)
)
Defendants.
)
___________________________________ )

App. 42
DEFENDANT DEXTER DUMAS’ MOTION TO
DISMISS PLAINTIFF’S FIRST AMENDED
COMPLAINT AND INCORPORATED BRIEF BY
SPECIAL APPEARANCE
COMES NOW, Defendant Dexter Dumas
(hereinafter “Investigator Dumas”) by special
appearance and through the undersigned Counsel, and
pursuant to Federal Rules of Civil Procedure (FRCP)
12(b)(5) and 12(b)(6), files this Motion to Dismiss
Plaintiff’s First Amended Complaint and Incorporated
Brief by Special Appearance. For the reasons stated
within, Investigator Dumas respectfully requests that
this Court dismiss Plaintiff’s Amended Complaint.
I. STATEMENT OF THE CASE
Plaintiff David Thorpe brings the present action
alleging violations of the Eighth and Fourteenth
Amendments to the United States Constitution, 42
U.S.C.A. §1983, and that the Defendants falsely
imprisoned and intentionally inflicted emotional
distress upon him.
II. STATEMENT OF FACTS
Plaintiff alleges in his First Amended Complaint,
hereinafter “Amended Complaint”, that Investigator
Dumas initiated an arrest warrant for Plaintiff in
either July or August of 2014. See Amended Complaint
at 7-8. Plaintiff further alleges that during this time,
Investigator Dumas “knowingly provided the Fulton
County Magistrate Court and the [Fulton County
District Attorney’s Office] with a falsified affidavit to
obtain an arrest warrant” against Defendant. Id. at 8.

App. 43
However, Plaintiff did not file suit in this matter until
August 10, 2018. Doc. 1.
On September 19, 2018, Plaintiff filed his Amended
Complaint. Amended Complaint at 1. Plaintiff placed
a copy of the Amended Complaint and Summons in the
mail addressed to Counsel for Investigator Dumas and
the Assistant Attorney General. Id. at 37. To date,
Plaintiff has failed to personally serve Investigator
Dumas with a copy of the Complaint and Summons.
III. ARGUMENT AND CITATION OF
AUTHORITY
FRCP 12(b)(5) authorizes this Court to dismiss a
complaint for insufficient service of process. Service of
process in a federal lawsuit is governed by FRCP 4(c)(1)
which “requires a plaintiff to serve each defendant with
a copy of both the summons and the complaint unless
the defendant waives service.” Cooley v. Ocwen Loan
Servicing, LLC, 729 Fed. Appx. 677, 682 (11th Cir.
2018). Although this Court is required to “give liberal
construction to the pleadings of pro se litigants”, pro se
litigants are nevertheless required to conform to
procedural rules.” Albra v. Advan, Inc., 490 F.3d 826,
829 (11th Cir. 2007). Furthermore, “[a] defendant’s
actual notice is not sufficient to cure defectively
executed service.” Id.
Service of process can be accomplished by:
(a)

delivering a copy of the summons and of the
complaint to the individual personally;

(b)

leaving a copy of each at the individual’s
dwelling or usual place of abode with

App. 44
someone of suitable age and discretion who
resides there; or
(c)

delivering a copy of each to an agent
authorized by appointment or by law to
receive service of process. FRCP 4(e)(2).

“Neither Rule 4 of the Federal Rules of Civil Procedure
nor Georgia law… permit [Plaintiff] to serve the
defendant[] directly by mail.” Lawrence v. Bank of
America, N.A., 700 Fed. Appx. 980, 981 (11th Cir.
2017).
Additionally, FRCP 12(b)(6) authorizes dismissal of
an action when the complaint fails to state a claim
upon which relief can be granted and no construction of
the factual allegations will support the cause of action.
Fed. R. Civ. P. 12(b)(6); Marshall County Bd. of Educ.
v. Marshall County Gas Dist., 992 F.2d 1171, 1174
(11th Cir. 1993). While a court is required to accept as
true the complaint’s factual assertions, it is not bound
to accept as true a legal conclusion couched as a factual
allegation. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Although a motion to dismiss for failure to state a
claim upon which relief can be granted tests the
sufficiency of the complaint, a court may “dismiss a
complaint on a dispositive issue of law.” Marshall
County, 992 F.2d at 1174.
A. Plaintiff Has Failed to Properly Serve
Investigator Dumas.
In the present action, Plaintiff’s attempted service
is insufficient to satisfy FRCP 4. Rule 4 clearly sets out
the proper process for service upon a party and
Plaintiff has neither complied with nor attempted to

App. 45
comply with this Rule. Amended Complaint at 37.
Service by mail is not a proper process for serving
Investigator Dumas under the Federal or State rules.
See Lawrence v. Bank of America, N.A., 700 Fed. Appx.
980, 981 (2017). As a result, Plaintiff’s Amended
Complaint must be dismissed due to insufficient
service of process.
B. Plaintiff’s Claims are Barred by the Statute
of Limitations
In his Amended Complaint, Plaintiff alleges that
Investigator Dumas sought an arrest warrant against
Plaintiff and made false or misleading statements to
obtain said arrest warrant. Amended Complaint at 7.
Plaintiff alleges that these false statements occurred
prior to his August 2, 2014 arrest. Id. at 8-9. Yet,
Plaintiff waited until August 10, 2018 to file his
Complaint in the instant action, more than four years
after the alleged events giving rise to Plaintiff’s
Amended Complaint occurred to file his Complaint in
the instant action. Doc. 1.
The applicable statute of limitations in the present
action is two years. Owens v. Okure, 488 U.S. 235, 240
(1989) (“42 U.S.C. §1988 requires courts to borrow and
apply to all §1983 claims the one most analogous state
statute of limitations”); O.C.G.A. § 9-3-33 (“actions for
injuries to the person shall be brought within two years
after the right of action accrues”). Thus, taken as true,
the allegations contained in Plaintiff’s Amended
Complaint demonstrate that Plaintiff’s claims are
barred by the two-year statute of limitations as all
allegations against Investigator Dumas occurred prior
to August 10, 2016. Accordingly, Plaintiff’s Amended

App. 46
Complaint should be dismissed as to Investigator
Dumas.
IV. CONCLUSION
For the foregoing reasons, Plaintiff’s Amended
Complaint must be dismissed in its entirety. Plaintiff
has failed to properly serve Investigator Dumas and
cannot cure this defect through actual knowledge.
Thus, Investigator Dumas’ Motion to Dismiss should be
granted. In the alternative, Investigator Dumas
respectfully requests that this Court grant his Motion
to Dismiss on the grounds that Plaintiff has failed to
bring the present action within the applicable statute
of limitations.
[SIGNATURE ON FOLLOWING PAGE]
This 1st day of October, 2018.
Respectfully Submitted,
Staci J. Miller
VALORRI C. JONES
Senior Assistant City Attorney
Georgia Bar No. 848714
vcjones@atlantaga.gov
(404) 546-4178 direct
STACI J. MILLER
Associate City Attorney
Georgia Bar No. 601594
sjmiller@AtlantaGa.Gov
404-546-4083 direct
Attorneys for Defendant

App. 47
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 48

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF GEORGIA
ATLANTA DIVISION
CIVIL ACTION NO.
1:18-cv-3817-AT
[Filed November 8, 2018]
________________________________
DAVID THORPE,
)
)
Plaintiff,
)
)
v.
)
)
DEXTER DUMAS, GEORGE
)
JENKINS, LAUREN BOONE,
)
JEFFREY S. CONNELLY, FANI )
WILLIS, and URAL GLANVILLE, )
)
Defendants.
)
________________________________ )
ORDER
This matter is before the Court on the Motions to
Dismiss Plaintiff’s Amended Complaint of Defendants
Dexter Dumas, Judge Ural Glanville, Fani Willis,
George Jenkins, Lauren Boone, and Jeffrey S. Connelly
[Docs. 16, 19, 22], Plaintiff’s Motion for Clerk’s Entry of

App. 49
Default against Defendants Lauren Boone, Dexter
Dumas, Jeffrey Connelly, and George Jenkins [Doc.
24], Motion for Leave to File Excess Pages by Ural
Glanville and Fani Willis [Doc. 18], Second Motion to
Stay Discovery by Ural Glanville and Fani Willis [Doc.
20].
Plaintiff, who is pro se, filed a Complaint pursuant
to 28 U.S.C. § 19831 seeking damages for alleged civil
rights violations arising out of his arrest and ensuing
prosecution in Fulton County Superior Court. Plaintiff
also brings state law claims of malicious prosecution,
intentional infliction of emotional distress, and false
imprisonment. (Am. Compl., Doc. 12 ¶¶ 93-119.)
Plaintiff asserts claims against the presiding judge,
Ural Glanville; the supervising prosecutor, Fani Willis;
prosecutors, George Jenkins, Lauren Boone, and
Jeffrey Connelly; and a police investigator, Dexter
Dumas. Because it is unclear to the Court whether
Plaintiff is suing these Defendants in their individual
and/or official capacities, the Court will construe both

1

Plaintiff’s first claim is for a violation of 42.U.S.C. § 1983.
However, by its plain terms, Section 1983 does not itself create any
substantive rights, but instead provides a method for redress for
the deprivation of rights established elsewhere in the Constitution
or federal laws. See Barfield v. Brierton, 883 F.2d 923, 934 (11th
Cir. 1989) (“Section 1983 alone creates no substantive rights;
rather it provides a remedy for deprivations of rights established
elsewhere in the Constitution or federal laws.”) (citing Baker v.
McCollan, 443 U.S. 137, 144 n. 3, 99 S. Ct. 2689, 2694 n. 3, 61 L.
Ed. 2d 433 (1979)). Therefore, the Court construes Counts two
through four as constitutional claims pursuant to 42 U.S.C. § 1983.

App. 50
possibilities for the purposes of ruling on the Motions
to Dismiss.2
I. Background
Plaintiff alleges the following conduct by
Defendants resulted in violations of certain protections
guaranteed to him by the Fourth, Eighth, and
Fourteenth Amendments to the Federal Constitution,
and constitute malicious prosecution, intentional
infliction of emotional distress, and false imprisonment
under state law:
• After the Atlanta Police Department received a
complaint from an alleged victim, Detective
Dumas obtained an arrest warrant for Plaintiff
Thorpe for the capital felony of armed robbery
plus battery. (Am. Compl. ¶¶ 12-13.)
• Plaintiff Thorpe was arrested on August 2, 2014.
(Id. ¶ 17.) He “made his first appearance on
August 4, 2014 and because of the capital felony
charge, Thorpe was denied bail and informed
that any bond issues had to be heard by a higher
court.” (Id.) On August 9, 2014, Thorpe was
indicted for armed robbery, aggravated assault,
and battery. (Id.)

2

The Court recognizes that Plaintiff is appearing pro se. Thus, his
complaint is more leniently construed and “held to less stringent
standards than formal pleadings drafted by lawyers.” Erickson v.
Pardus, 551 U.S. 89, 94 (2007) (citations and internal quotation
marks omitted); Tannenbaum v. United States, 148 F.3d 1262,
1263 (11th Cir. 1998).

App. 51
• The Fulton County District Attorney’s Office
“had knowledge and were in possession of
evidence that refuted their fundamentally unfair
charges [against Plaintiff Thorpe].” (Id. ¶ 19.)
Thorpe and his attorney began requesting Brady
material from Defendant Jenkins in August of
2014. (Id. ¶ 20.)
• Defendants Jenkins, Boone, and Connelly failed
to investigate his case and prosecuted him
without probable cause. (Id. ¶¶ 94-95.)
• Defendant Jenkins “chose not to address the
requested Brady [sic] material.” (Id. ¶ 21.)
Despite knowing “that he lacked the credible
evidence necessary to secure a conviction against
Thorpe, [Defendant Jenkins] elected to proceed
with the unwarranted prosecution of Thorpe.”
(Id. ¶ 22.) Sometime around September 2014,
Defendant Jenkins “came into the knowledge of
exculpatory evidence which refuted the
probability of the armed robbery[,]” aggravated
assault, and battery allegations Thorpe faced.
(Id. ¶¶ 25-27.)
• All three of the prosecutors assigned to his case
continued the prosecution despite having
exculpatory evidence in their possession. (Id.
¶¶ 25-27, 33-36, 40.)
• As a condition of his bond, Thorpe was required
to wear an ankle monitor and report for weekly
supervision. (Id. ¶¶ 31, 32.) Judge Glanville did
not rule on Thorpe’s request for a bond
modification. (Id. ¶¶ 43-45, 84, 87.) The

App. 52
requirements of wearing an ankle monitor,
paying the bond company, and reporting to
weekly supervision was excessive. (Id. ¶ 88.)
• Judge Glanville recused himself from Mr.
Thorpe’s case. (Id. ¶ 51)
• Deputy Willis, as the supervising attorney in the
prosecutor’s office is responsible for Defendant
Jenkins, Boone, and Connelly’s failure to
investigate. (Id. ¶ 52.)
• The State of Georgia dismissed the charges
against Mr. Thorpe on October 20, 2016. (Id. at
¶ 51.)
• Finally, “[a]s a direct and proximate result of
Defendants’ actions or failure to act, Thorpe has
been emotionally, physically, and financially
damaged.” (Id. ¶ 60)
II. Standard of Review on Motion to Dismiss
This Court may dismiss a pleading for “failure to
state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). A pleading fails to state a claim if it
does not contain allegations that support recovery
under any recognizable legal theory. 5 CHARLES
ALAN WRIGHT & ARTHUR R. MILLER, FEDERAL
PRACTICE & PROCEDURE § 1216 (3d ed. 2002); see
also Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Generally, notice pleading is all that is required for a
valid complaint. See Lombard’s, Inc. v. Prince Mfg.,
Inc., 753 F.2d 974, 975 (11th Cir.1985), cert. denied,
474 U.S. 1082 (1986). Under notice pleading, the
plaintiff need only give the defendant fair notice of the

App. 53
plaintiff’s claim and the grounds upon which it rests.
See Erickson v. Pardus, 551 U.S. 89, 93 (2007) (citing
Bell Atlantic v. Twombly, 550 U.S. 544, 555 (2007)). In
ruling on a motion to dismiss, the court must accept
the facts pleaded in the complaint as true and construe
them in the light most favorable to the plaintiff. See
Hill v. White, 321 F.3d 1334, 1335 (11th Cir. 2003); see
also Sanjuan v. American Bd. of Psychiatry and
Neurology, Inc., 40 F.3d 247, 251 (7th Cir.1994) (noting
that at the pleading stage, the plaintiff “receives the
benefit of imagination”).
A complaint should be dismissed under Rule
12(b)(6) only where it appears that the facts alleged fail
to state a “plausible” claim for relief. Twombly, 550
U.S. at 555-556; Fed. R. Civ. P. 12(b)(6). A complaint
may survive a motion to dismiss for failure to state a
claim, however, even if it is “improbable” that a
plaintiff would be able to prove those facts and even if
the possibility of recovery is extremely “remote and
unlikely.” Twombly, 550 U.S. at 556 (citations and
quotations omitted). A claim is plausible where the
plaintiff alleges factual content that “allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. at 678. The plausibility standard requires that a
plaintiff allege sufficient facts “to raise a reasonable
expectation that discovery will reveal evidence” that
supports the plaintiff’s claim. Twombly, 550 U.S. at
556. A Plaintiff is not required to provide “detailed
factual allegations” to survive dismissal, but the
“obligation to provide the ‘grounds’ of his ‘entitle[ment]
to relief’ requires more than labels and conclusions,

App. 54
and a formulaic recitation of the elements of a cause of
action will not do.” Id. at 555.
The Court recognizes that Plaintiff is appearing pro
se. Thus, the Complaint is more leniently construed
and “held to less stringent standards than formal
pleadings drafted by lawyers.” Erickson v. Pardus, 551
U.S. 89, 94 (2007) (citations and internal quotation
marks omitted); Tannenbaum v. United States, 148
F.3d 1262, 1263 (11th Cir. 1998). However, nothing in
that leniency excuses a plaintiff from compliance with
threshold requirements of the Federal Rules of Civil
Procedure. See Moon v. Newsome, 863 F.2d 835, 837
(11th Cir. 1998), cert. denied, 493 U.S. 863 (1989). Nor
does this leniency require or allow courts “to rewrite an
otherwise deficient pleading [by a pro se litigant] in
order to sustain an action.” GJR Invs., Inc. v. County of
Escambia, Fla., 132 F.3d 1359, 1369 (11th Cir. 1998).
III. Discussion
A. Defendants Dumas, Jenkins, Boone, and
Connelly’s Motion to Dismiss
Defendants Dumas, Jenkins, Boone, and Connelly
seek dismissal of Plaintiff’s complaint pursuant to Fed.
R. Civ. P. 12(b)(5) for insufficient service of process
because Defendants were served by mail.3
3

“Service of process is a jurisdictional requirement: a court lacks
jurisdiction over the person of a defendant when the defendant has
not been served.” Pardazi v. Cullman Med. Ctr., 896 F.2d 1313,
1317 (11th Cir. 1990). Thus, the Court begins its inquiry here, as
the Court cannot reach the merits of the plaintiff’s claims against
improperly served defendants unless and until those defendants
are properly served or service of process is waived. See Fed. R. Civ.

App. 55
Plaintiff has failed to properly serve Defendants as
required under the Federal Rules of Civil Procedure.
Under Fed. R. Civ. P. 4(e), an individual must be
served either: (1) “following state law . . . in the state
where the district court is located or where service is
made” or doing one of the following: (A) “delivering a
copy of the summons and of the complaint to the
individual personally; (B) leaving a copy of each at the
individual’s dwelling or usual place of abode with
someone of suitable age and discretion who resides
there; or (C) delivering a copy of each to an agent
authorized by appointment or by law to receive service
of process.” Fed. R. Civ. P. 4(e)(1)-(2).
The Eleventh Circuit has held that Rule 4(e)
requires personal service on an individual absent
waiver. Natty v. Morgan, 615 F. App’x 938, 939 (11th
Cir. 2015) (finding that service was “insufficient
because [the plaintiff] simply mailed papers to the
defendants”). In Natty, the Court upheld dismissal of a
pro se action on grounds of imperfect service where the
plaintiff’s only attempt at service was sending by mail
a copy of the papers to the defendants. Id.
P. 4(m); Jackson v. Warden, FCC Coleman-USP, 259 F. App’x 181,
183 (11th Cir. 2007).
The Court notes that Defendant Dumas also seeks dismissal of
Plaintiff’s Amended Complaint because Plaintiff’s claims are
barred by the two-year statute of limitations. Defendants Jenkins,
Boone, and Connelly seek dismissal on the following additional
grounds: (1) as prosecutors they are entitled to absolute immunity;
(2) Plaintiff’s claims are barred by the statute of limitations;
(3) they have absolute immunity from the state law claims; and
(4) Plaintiff has failed to allege facts that establish a claim for
malicious prosecution.

App. 56
The Federal Rules of Civil Procedure permit service
“following state law for serving a summons in an action
brought in courts of general jurisdiction in the state
where the district court is located.” Fed. R. Civ. P.
4(e)(1). Thus, the Court must also examine whether
Plaintiff complied with Georgia law governing service
of process. See Usatorres v. Marina Mercante
Nicaraguenses, S.A., 768 F.2d 1285, 1286 n. 1 (11th
Cir.1985); Fed. R. Civ. P. 4(e)(1). Under Georgia law, a
plaintiff may serve an individual defendant “by leaving
copies thereof at the defendant’s dwelling house or
usual place of abode with some person of suitable age
and discretion then residing therein, or by delivering a
copy of the summons and complaint to an agent
authorized by appointment or by law to receive service
of process.” O.C.G.A. § 9-11-4 (e)(7).
On September 28, 2018, Plaintiff filed a Proof of
Service with the Court purporting to show that the
Complaint was “served via certified mail” to George
Jenkins on August 14, 2018, to Lauren Boone on
August 15, 2018, to Jeffrey Connelly on August 15,
2018, Fani Willis on August 14, 2018, Ural Glanville on
August 14, 2018, to Atlanta Police Department
Headquarters for Dexter Dumas on August 14, 2018,
and to Atlanta Police Department Zone 1 for Dexter
Dumas on August 21, 2018. (Doc. 17.)
Both Federal and Georgia law on service of process
require “personal service” – service by hand delivery of
the complaint and summons.4 For this reason,

4

However, neither Federal Rule 4 nor O.C.G.A. § 9-11-4 permit a
party to the action to personally serve process of the complaint and

App. 57
Plaintiff’s attempted service by mail is insufficient
under both the Fed. R. Civ. P. 4 and O.C.G.A. § 9-11-4
(e)(7). Accordingly, Defendants Dumas, Jenkins, Boone,
and Connelly’s Motions to Dismiss (Docs. 17, 22) are
GRANTED and Plaintiff’s claim against those
Defendants are DISMISSED without prejudice.
B. Motion to Dismiss of Defendants Judge
Glanville and Willis [Doc. 19]
Defendants Glanville and Willis seek dismissal of
Plaintiff’s complaint pursuant to Fed. R. Civ. P.
12(b)(1) and (6) because Defendants contend they are
entitled to absolute and Eleventh Amendment
immunity.5

summons. See Fed. R. Civ. P. 4 (providing that “[a]ny person who
is at least 18 years old and not a party may serve a summons and
complaint,” or “[a]t the plaintiff’s request, the court may order that
service be made by a United States marshal or deputy marshal or
by a person specially appointed by the court”); O.C.G.A. § 9-11-4
(providing that process shall be served by: (1) the sheriff’s office of
the county where the action is brought or where the defendant is
found; (2) the marshal or sheriff of the court; (3) any U.S. citizen
specially appointed by the court for that purpose; (4) a person 18
years or older who is not a party and has been appointed by the
court to serve process; or (5) a certified process server).
5

Defendants Glanville and Willis also seek dismissal based on the
following grounds: (1) Plaintiff’s claims against Defendant
Glanville are barred by the statute of limitations; (2) pursuant to
Fed. R. Civ. P. 12(b)(6), Plaintiff has failed to state a claim upon
which relief may be granted; (3) Defendants are entitled to
qualified immunity; (4) Plaintiff’s state law tort claims are barred;
and (5) the Georgia Tort Claims Act does not permit punitive
damages.

App. 58
Plaintiff has sued Defendants Glanville and Willis
as individuals. (See Am. Compl.) However, it is unclear
to the Court whether Plaintiff is suing these
Defendants in their individual and/or official
capacities. As Defendants sought dismissal on both
absolute and Eleventh Amendment immunity, for the
purposes of ruling on this Motion to Dismiss, the Court
will construe both possibilities.
1. Individual Capacity Claims
Defendants Glanville and Willis are entitled to
absolute immunity from liability for Plaintiff’s alleged
claims asserted against them in their individual
capacities.
a. Defendant Glanville
“Judges are entitled to absolute judicial immunity
from damages for those acts taken while they are
acting in their judicial capacity unless they acted in the
clear absence of all jurisdiction” over the subject
matter. Bolin v. Story, 225 F.3d 1234, 1239 (2000)
(citing Stump v. Sparkman, 435 U.S. 349, 356–57
(1978)) (emphasis added). “This immunity applies even
when the judge’s acts are in error, malicious, or were in
excess of his or her jurisdiction.” Id.
Plaintiff here alleges that Defendant Glanville
“stepped outside the bounds of his jurisdiction by
violating an American Citizens [sic] Right to have his
attorney argue to [sic] why the bond modification
should occur.” (Am. Compl. ¶ 87.) Plaintiff argues that
by “fail[ing] to provide Thorpe with a timely bond
hearing in regard to the removal of Thorpe’s ankle
monitor,” Defendant Glanville violated Thorpe’s

App. 59
constitutional rights. (Id. ¶ 89-90.) As the Supreme
Court explained in Stump v. Sparkman, “the scope of
the judge’s jurisdiction must be construed broadly
where the issue is the immunity of the judge,” and a
judge does not act in “clear absence of all jurisdiction”
if “at the time he took the challenged action he had
jurisdiction over the subject matter before him.” 435
U.S. at 356.6 In other words, if the court has
constitutional or statutory jurisdiction over the subject
matter of the proceeding, “[a] judge is absolutely
immune from liability for his judicial acts even if his
exercise of authority is flawed by the commission of
6

The Court makes a distinction between “excess of jurisdiction”
and the “clear absence of all jurisdiction over the subject matter”:
Where there is clearly no jurisdiction over the subjectmatter any authority exercised is a usurped authority, and
for the exercise of such authority, when the want of
jurisdiction is known to the judge, no excuse is
permissible. But where jurisdiction over the subjectmatter is invested by law in the judge, or in the court
which he holds, the manner and extent in which the
jurisdiction shall be exercised are generally as much
questions for his determination as any other questions
involved in the case, although upon the correctness of his
determination in these particulars the validity of his
judgments may depend.

Stump v. Sparkman, 435 U.S. at 356, n. 6 (citing Bradley v. Fisher,
80 U.S. 335, 351-52 (1872)). The Court explained this distinction
with the following example: “if a probate judge, with jurisdiction
over only wills and estates, should try a criminal case, he would be
acting in the clear absence of jurisdiction and would not be
immune from liability for his action; on the other hand, if a judge
of a criminal court should convict a defendant of a nonexistent
crime, he would merely be acting in excess of his jurisdiction and
would be immune.” Id., n. 7.

App. 60
grave procedural errors.” Id. at 359; Harris v. Deveaux,
780 F.2d 911, 916 (11th Cir. 1986) (holding that the
test regarding whether a judge acted in the “clear
absence of all jurisdiction . . . is only satisfied if a judge
completely lacks subject matter jurisdiction”).
O.C.G.A. § 15-6-8 provides that “[t]he superior
courts have authority: [t]o exercise original, exclusive,
or concurrent jurisdiction, as the case may be, of all
causes, both civil and criminal.” Such jurisdiction
includes felony offenses of armed robbery, aggravated
assault, and battery. There is no question that
Defendant Glanville was acting in his judicial capacity
in presiding over the proceeding involving the state’s
prosecution of Plaintiff and that the court properly
exercised jurisdiction in that matter.
Defendant Glanville is therefore entitled to absolute
judicial immunity from Plaintiff’s suit under federal
and state law. See Dykes v. Hosemann, 776 F.2d 942,
946-47 (11th Cir. 1985) (en banc) (finding judge was
entitled to absolute immunity from suit where it was
clear that he had subject matter jurisdiction over the
underlying dependency proceeding where state statute
provided that “[t]he circuit court shall have exclusive
original jurisdiction of proceedings in which a child is
alleged to be dependent,” and that question whether he
may have incorrectly concluded that minor actually
was dependent did not affect the fact that it was within
his power to make that determination); Robinson v.
Becker, 595 S.E.2d 319, 321 (Ga. Ct. App. 2004)
(finding that superior court judge engaged in a judicial
act in banning plaintiff from courthouse during
criminal trial and stating that “[j]udicial immunity

App. 61
protects judges against state law claims, as well as civil
rights actions brought under 42 U.S.C. § 1983”);
Maddox v. Prescott, 449 S.E.2d 163, 165 (Ga. Ct. App.
1994) (“Our courts have consistently held that judges
are immune from liability in civil actions for acts
performed in their judicial capacity.”)
Accordingly, the Court GRANTS Defendant
Glanville’s Motion to Dismiss [Doc. 19] Plaintiff’s
claims against him in his individual capacity.
b. Defendant Willis
Prosecutors are also entitled to absolute immunity
from damages for all actions they take associated with
the judicial process as an advocate for the government,
including those taken in initiating a prosecution,
presenting the government’s case, and all appearances
before the court. See Imbler v. Pachtman, 424 U.S. 409,
430–31 (1976); Hart v. Hodges, 587 F.3d 1288, 1295
(11th Cir. 2009) (citing Imbler); Bolin, 225 F.3d at 1242
(same); Rowe v. City of Fort Lauderdale, 279 F.3d 1271,
1279 (11th Cir. 2002). Prosecutors even have absolute
immunity when “filing an information without
investigation, filing charges without jurisdiction [or
probable cause], filing a baseless detainer, offering
perjured testimony, suppressing exculpatory evidence,
[and] refusing to investigate . . .” Hart v. Hodges, 587
F.3d at 1295 (quoting Henzel v. Gerstein, 608 F.2d 654,
657 (5th Cir. 1979)); Holt v. Crist, 233 F. App’x 900, 903
(11th Cir. 2007) (stating that prosecutorial immunity
“extends to charging a defendant without probable
cause”). “While not undertaken literally at the direction
of the court, these activities are so intimately
associated with the judicial phase of the criminal

App. 62
process as to cloak the prosecutors with absolute
immunity from suits for damages.” Hart, 587 F.3d at
1295 (quoting Allen v. Thompson, 815 F.2d 1433 (11th
Cir. 1987); Imbler, 424 U.S. at 430 (holding absolute
immunity was available for prosecutor’s activities in
initiating a prosecution and in presenting the state’s
case because they were “intimately associated with the
judicial phase of the criminal process”).
District attorneys are similarly entitled to
prosecutorial immunity for actions arising under state
law.
Pursuant to Art. VI, Sec. VIII, Par. I(e) of the
Georgia Constitution of 1983, district attorneys
have immunity from private actions “arising
from the performance of their duties.” The
rationale behind this immunity is that
prosecutors, like judges, should be free to make
decisions properly within the purview of their
official duties without being influenced by the
shadow of liability. Therefore, a district attorney
is protected by the same immunity in civil cases
that is applicable to judges, provided that his
acts are within the scope of his jurisdiction.7 The
determining factor appears to be whether the act

7

In Georgia’s “criminal justice system, the district attorney
represents the people of the state in prosecuting individuals who
have been charged with violating [the] state’s criminal laws.” State
v. Wooten, 543 S.E.2d 721, 723 (Ga. 2001). The district attorney
“has broad discretion in making decisions prior to trial about who
to prosecute, what charges to bring, and which sentence to seek.”
Id.

App. 63
or omission is “intimately associated with the
judicial phase of the criminal process.”
Robbins v. Lanier, 402 S.E.2d 342, 343-44 (Ga. Ct. App.
1991) (citing Holsey v. Hind, 377 S.E.2d 200, 201 (Ga.
Ct. App. 1988) and Smith v. Hancock, 256 S.E.2d 627
(Ga. Ct. App. 1979)) (internal quotations omitted). A
district attorney’s initiation and prosecution of a case
involving criminal charges is an act “intimately
associated with the judicial phase of the criminal
process.” Id.; see also Holsey v. Hind, 377 S.E.2d 200,
201 (Ga. Ct. App. 1988); Kadivar v. Stone, 804 F.2d
635, 637 (11th Cir. 1986).
Defendant Willis is therefore entitled to absolute
prosecutorial immunity from Plaintiff’s suit under
federal and state law. Accordingly, the Court GRANTS
Defendant Willis’s Motion to Dismiss [Doc. 19]
Plaintiff’s claims against her in her individual capacity.
2. Official Capacity Claims
Because a suit against a party in his official
capacity is considered a suit against the government
entity he or she represents, Defendants Glanville and
Willis are entitled to Eleventh Amendment immunity
from liability to the extent Plaintiff alleges claims
asserted against them in their official capacities. See
Kentucky v. Graham, 473 U.S. 159, 165-69 (1985)
(“[A]bsent [a] waiver by the State or valid congressional
override, the Eleventh Amendment bars a damages
action against a State in federal court. This bar
remains in effect when State officials are sued for
damages in their official capacity . . . because . . . a
judgment against a public servant ‘in his official

App. 64
capacity’ imposes liability on the entity that he
represents.”) (internal quotations and citations
omitted).
a. Defendant Glanville
The Georgia constitution vests state court judges
with the judicial power of the State. Ga. Const. art. VI,
§ I, ¶ I. A qualified judge may therefore exercise the
state’s “judicial power in any court upon the request
and with the consent of the judges of that court and of
the judge’s own court under rules prescribed by law.”
Ga. Const. art. VI, § 1, ¶ III. As Defendant Glanville is
a state official he is entitled to Eleventh Amendment
immunity to the extent Plaintiff has asserted damages
claims against him in his official capacity. See
Simmons v. Conger, 86 F.3d 1080, 1085 (11th Cir.
1996) (applying Eleventh Amendment immunity to
judge sued in official capacity).
Accordingly, the Court GRANTS Defendant
Glanville’s Motion to Dismiss [Doc. 19] Plaintiff’s
claims against him in his official capacity.
b. Defendant Willis
The Eleventh Circuit has held that a Georgia
district attorney is a state official — rather than a
county official — when he is “exercising his discretion
in prosecutorial decisions.” Owens v. Fulton County,
877 F.2d 947, 950-51 (11th Cir. 1989); Neville v. Classic
Gardens, 141 F. Supp. 2d 1377, 1382 (S.D. Ga. 2001)
(“Engaging in a prosecutorial function is the act of a
State, not a county, official.”); McClendon v. May, 37
F.Supp.2d 1371, 1375–76 (S.D. Ga. 1999), aff’d, 212
F.3d 599 (11th Cir. 2000); see also State v. Wooten, 543

App. 65
S.E.2d 721, 723 (Ga. 2001) (“the district attorney
represents the people of the state in prosecuting
individuals who have been charged with violating [the]
state’s criminal laws”).
Thus, to the degree that Plaintiff seeks to hold
Defendant Willis liable in her official capacity for acts
within the realm of her prosecutorial discretion, Willis
is considered a State official entitled to Eleventh
Amendment immunity. Neville, 141 F. Supp. 2d at
1382 (“The Eleventh Amendment bars federal courts
from hearing pendant [S]tate [law] claims for damages
brought against State officers who are sued in their
official capacities.”); McClendon v. May, 37 F. Supp. 2d
at 1375–76 (S.D. Ga. 1999) (finding that “for all his acts
undertaken within the realm of his prosecutorial role,
[the] district attorney [] acted as a state official [and] is
entitled to Eleventh Amendment immunity on his
official capacity claims for his conduct before the grand
jury”), aff’d, 212 F.3d 599 (11th Cir. 2000); Abiff v.
Slaton, 806 F. Supp. 993, 996–97 (N.D. Ga. 1992)
(holding that county prosecutors enjoyed official
capacity, Eleventh Amendment immunity from § 1983
claim), aff’d, 3 F.3d 443 (11th Cir. 1993).
Accordingly, the Court GRANTS Defendant Willis’s
Motion to Dismiss [Doc. 19] Plaintiff’s claims against
her in her official capacity.
III. Conclusion
For the foregoing reasons, as to service deficiencies,
the Court GRANTS without prejudice the Motions
to Dismiss of Defendants Dumas, Jenkins, Boone, and
Connelly [Docs. 16, 22]. Dismissal, without prejudice,

App. 66
while having the effect of discontinuing this federal
action, will enable Plaintiff, should he choose to do so,
to refile his claims and properly serve Defendants
Dumas, Jenkins, Boone, and Connelly. However,
Defendants Jenkins, Boone, and Connelly are likely
also entitled to immunity; and the claims against
Defendant Dumas are likely barred by the applicable
statute of limitations. Thus, the Court cautions that
refiling may be futile, i.e. that these claims, if refiled,
may well be dismissed due to these defenses.
The Court GRANTS with prejudice the Motion to
Dismiss of Defendants Glanville and Willis [Doc. 19];
and DENIES AS MOOT Plaintiff’s Motion [Doc. 24]
and Defendants Glanville and Willis’s Motion to File
Excess Pages and Stay Discovery [Docs. 18, 20]. The
Clerk is DIRECTED to close the case.
IT IS SO ORDERED this 8th day of November,
2018.
/s/Amy Totenberg
AMY TOTENBERG
UNITED STATES DISTRICT JUDGE

App. 67

APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
Civil Action File
No. 1:18-CV-3817
[Filed November 29, 2018]
___________________________________
DAVID THORPE, an individual,
)
)
Plaintiff,
)
)
v.
)
)
DEXTER DUMAS, an individual,
)
GEORGE JENKINS, an individual, )
LAUREN BOONE, an individual,
)
JEFFREY S. CONNELLY, an
)
individual, FANI WILLIS, an
)
individual, and URAL GLANVILLE, )
an individual,
)
)
Defendants.
)
___________________________________ )
MOTION FOR RELIEF FROM JUDGMENT
PURSUANT TO FED. R. CIV. P 60 (b) AND
PLAINTIFF REQUESTS THAT THE CASE BE
RE-OPENED, AND ENTRY OF DEFAULT
JUDGMENT BE ADDRESSED.

App. 68
Pursuant to Fed. R. Civ. P 60 (b), Plaintiff David
Thorpe, moves the court for relief from the Order dated
11/08/2018 (document 31) and requests that this case
be re-opened. With all due respect, it is not the
Plaintiff’s intent to blame nor make excuses. Plaintiff
needs to address the oversights that impact the current
status of this case.
1. Pertaining to the dismissal without prejudice of
the Plaintiff’s complaint against the Defendants
Dumas, Jenkins, Boone and Connelly. This
court expressed the position of not having
jurisdiction and dismissed on the grounds of
insufficient service.
a. Plaintiff has admitted to the complexity of
this action, pertaining but not limited to the
Fed. R. Civ. Procedure. Nonetheless,
Plaintiff’s slow comprehension should be the
direct opposite of the courts and the
Defendant’s knowledge of said rules. That
being said, in support of this motion Plaintiff
states:
2. A responsive pleading by a Defendant that fails
to dispute personal jurisdiction waives any
defect in service or personal jurisdiction,
furthermore, the law is settled in the Ninth
Circuit Court of Appeals that a Defendant must
object to the insufficiency of service before filing
any answer to any complaint. If a Defendant
fails to object before filing an answer, any
defect in service are waived. See Benny v. Pipes,
799 F.2d 489, 492 (9th Cir. 1996), see also

App. 69
Jackson Hayakawa, 682 F.2d 1344, 1347 (9th Cir.
1982).
a. Jurisdiction attaches if a defendant makes a
voluntary general appearance, as by filing an
answer through an attorney. Amen v.
Dearborn, 532 F.2d 554, 558 n 7 (6th Cir.
1976).
3. Court records will show that Dumas, Jenkins,
Boone, and Connelly all did not object to
personnel jurisdiction prior to filing their first
pleading and also did not object to the
insufficiency of service on a motion of its own, or
prior to filing a responsive pleading.
4. Pertaining to the dismissal with prejudice of the
Plaintiff’s complaint against the Defendant’s
Glanville and Willis. Plaintiff states the
following:
Glanville
a. The courts document states, judges are
entitled to absolute judicial immunity from
damages for those acts taken in their judicial
capacity. It is even more disturbing to hear
this court judge (the center stone in this
action) state that this immunity applies even
when the judge’s acts are malicious, in excess
of jurisdiction, and with grave errors etc.
Now, let’s compare that declaration with
Rule 1.2 (ABA/GBA) these same judges are
demanded that they “shall act at all times in
a manner that promotes public confidence in
independence, integrity, and impartiality of

App. 70
the judiciary, and shall avoid impropriety
and the appearance of impropriety.” Please
allow Plaintiff to go further.. reference GA
Code 15-6-6 (28 U.S. Code 453) details the
oath that each judge takes “I, __ __, do
solemnly swear (or affirm) that I will
administer justice without respect to persons,
and do equal right to the poor and to the rich,
..... ” Plaintiff is honestly, humbly asking this
court which of these judicial behaviors
supersedes the other? (1) The honorable oath
abiding judge or (2) the perhaps well dressed,
well-groomed transgressor of the true intent
of the United States Constitution?? Plaintiff
states it is safe to say, “what we have is a
conflict in the application of justice.”
Furthermore, the court has referenced all
cases that benefit the government. Yet, the
court has not opposed or even addressed the
Plaintiff’s legal references, yet again a
conflict in the application of justice. In
addition, it is necessary to note that all the
case references in support of this absolute
and judicial immunity strictly deal with acts
(actions taken). Plaintiff contends and refers
back to Plaintiff’s Amended Complaint.
Glanville’s failure to act constitutes an
inaction (failure to do anything). Plaintiff
further contends, there is no mention of an
inaction which caused the violation, being
protected by these immunities. In layman’s
term. How can there be any jurisdiction to an
event that wasn’t permitted to materialize
(Glanville’s failure to act). Regarding the

App. 71
unique nature of this Plaintiff’s contention,
Plaintiff is absolutely seeking to set a
precedent ruling.
Willis
b. The court documents state: prosecutors are
also entitled to absolute and prosecutorial
immunity from damages for all actions they
take associated with the judicial process as
an advocate for the government. Again, it is
even more disturbing to hear judges (the
center stone of any justice system) casually
states the prosecutors enjoy immunity, even
when they file charges without probable
cause, file baseless detainers, and offer
perjured testimony. (Plaintiff can’t even go
further) this notion is unjust, injurious and
disquieting especially when we consider the
bar rules that governs prosecutors. (example)
Prosecutors shall exercise discretion to not
pursue criminal charges in appropriate
circumstances and seek to protect the
innocent (like the Plaintiff). They shall
respect the Constitutional Rights of all
persons including suspects and Defendant’s.
Plaintiff states it appears individuals are
being placed above the law. What we have
here is a conflict in the application of justice.
How can this or any court rule let alone
dismiss actions in any matter when there is
a legitimate conflict? again, and the court has
referenced all cases that benefit the
government, yet the court has not opposed or

App. 72
addressed any of the Plaintiff’s case
references. Yet again, a conflict in the
application of justice. In addition, it is
imperative to note that all the Defendant’s
and the courts references and support of
these immunities strictly deal with acts
(actions). Plaintiff contends and refers back
to his complaint: Defendant’s failure to act
constitutes an inaction. (abstinence) Plaintiff
further contends that there is absolutely no
mention of an inaction that caused the
constitutional violation being covered by said
immunities broad jurisdiction. In layman’s
term. How can there be immunity shielding
an action that did not exist? (All the
prosecutor’s failure to act ABA/GBA Rule 3.8
(a) ). Regarding the unique nature of this
Plaintiff’s contention, Plaintiff is absolutely
seeking to set a precedent ruling.
All Defendant’s
5. It is sad that the Plaintiff has to remind this
court that the Plaintiff is the undisputed victim
here. Seeking not only Plaintiff’s actual financial
losses (as a result of the violations, misconduct,
and failures to act of these Defendant’s) but all
damages that Plaintiff is rightfully entitled too.
Nonetheless it is imperative, that these officials
be held accountable for their undisputed
misconduct. Does this pro se really have to
express to well-educated criminal justice
government officials, whose duty is to balance
wrongdoing with punishment? That showing

App. 73
preferential treatment to any human that does
wrong yet is granted protection from
punishment is dead wrong!!!!! That notion is a
direct conflict to the fundamentals of justice. It
is essentially granting a modem-day status of
nobility/superiority.
a. That brings the Plaintiff to this point, it
appears this court has only addressed the
dismissal of the damage claims in the
Plaintiff’s Complaint. Plaintiff seeks clarity
of his rights pertaining to Plaintiff’s request
that this court declares in the form of a
written order that misconduct did occur on
behalf of every Defendant in this Complaint.
(See the Plaintiff’s initial disclosure for
statutes, rules, and Constitutional Rights
violated.)
b. Referencing Rule 12 (g) (2) it requires a
defendant to raise the defense of failure to
state a claim in a single motion. See Am.
Assn of Naturopathic Physicians v. Hayhurst,
227 F.3d 1104, 1107 (9th Cir. 2000). Plaintiff
states Defendant’s have not filed a defense
motion of failure to state a claim in a single
motion on its own.
c. Plaintiff must add the fact that every request
Plaintiff has asked of this court (permission
to amend complaint, extension to serve the
Defendant, and entry of default etc.) have
gone unaddressed!!!

App. 74
d. Plaintiff has paid his fees with good faith and
placed his trust back into this system.
Despite the system applying a poor
application of fairness let alone justice thus
far.
Conclusion
Accountability is always commensurate with
responsibility, when one is responsible, one can be held
liable for your action or inaction. It can be legal,
contractual or even moral.
WHEREFORE, Plaintiff asks that Plaintiff’s case be
re-opened for the furtherance of justice and
accountability.
Dated: 11-29-2018
Respectfully submitted,
/s/David Thorpe
David Thorpe
Pro Se Plaintiff
4902 Fielding Way
Stone Mountain, GA 30088
fax # 1-888-828-0034
phone number 1-404-428-8276
***
[Certification of Service Omitted in the
Printing of this Appendix]

App. 75

APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-10089-HH
[Filed October 28, 2019]
__________________________
DAVID THORPE,
)
)
Plaintiff - Appellant,
)
)
versus
)
)
DEXTER DUMAS,
)
an individual,
)
GEORGE JENKINS,
)
an individual,
)
LAUREN BOONE,
)
an individual,
)
JEFFREY S. CONNELLY, )
an individual,
)
FANI WILLIS,
)
an individual, et al.,
)
)
Defendants - Appellees. )
__________________________ )
___________________________________________
Appeal from the United States District Court
for the Northern District of Georgia
___________________________________________

App. 76
BEFORE: ED CARNES, Chief Judge, WILLIAM
PRYOR, and GRANT, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by David Thorpe
is DENIED.
ENTERED FOR THE COURT:
/s/Ed Carnes
CHIEF JUDGE
ORD-41

App. 77

APPENDIX F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
Civil Action File
No. 1:18-CV-3817
[Filed January 8, 2019]
___________________________________
DAVID THORPE, an individual,
)
)
Plaintiff,
)
)
v.
)
)
DEXTER DUMAS, an individual,
)
GEORGE JENKINS, an individual, )
LAUREN BOONE, an individual,
)
JEFFREY S. CONNELLY, an
)
individual, FANI WILLIS, an
)
individual, and URAL GLANVILLE, )
an individual,
)
)
Defendants.
)
___________________________________ )
NOTICE OF APPEAL
Now comes the Plaintiff, David Thorpe, and hereby
appeals to the Untitled States Court of Appeals for the
Eleventh Circuit from: (1) the United States District
Courts Northern District of Georgia; orders of

App. 78
dismissals dated November 8, 2018, (2) the United
States District Courts Northern District of Georgia
order denying motion for relief from order/judgement,
order denying motion to re-open case, and order
denying motion for default judgment dated December
11, 2018.
Dated: 01-08-19
Respectfully submitted,
/s/David Thorpe
David Thorpe
Pro Se Plaintiff
4902 Fielding Way
Stone Mountain, GA 30088
***
[Certification of Service and Appeal Receipt Sheet
Omitted in the Printing of this Appendix]

